  U.S. Department of Education

Office of Inspector General




Semiannual Report to Congress: No. 56
    October 1, 2007 - March 31, 2008
                                                                Table of Contents
INSPECTOR GENERAL’S MESSAGE TO CONGRESS
OVERVIEW .............................................................................................................................................. 1
STUDENT FINANCIAL ASSISTANCE PROGRAMS ....................................................................... 3
Special Allowance Payments ...................................................................................................................... 4
   American Education Services/Pennsylvania Higher Education Assistance Agency ............................. 4
FSA Operations ........................................................................................................................................... 5
   Central Processing System Edit Check .................................................................................................. 5
Title IV Program Participants ..................................................................................................................... 6
   Capella University ................................................................................................................................. 6
   Wilberforce University .......................................................................................................................... 7
   Herzing College-Madison ...................................................................................................................... 7
   Vatterott College-Des Moines ............................................................................................................... 8
Investigations .............................................................................................................................................. 8
   California ............................................................................................................................................... 8
   Connecticut ............................................................................................................................................ 9
   Illinois .................................................................................................................................................... 9
   New York ............................................................................................................................................... 9
   Oklahoma ............................................................................................................................................. 10
   Pennsylvania ........................................................................................................................................ 10
ELEMENTARY AND SECONDARY EDUCATION PROGRAMS ................................................ 10
ESEA/NCLB ............................................................................................................................................. 11
   ESEA Perspective Paper ...................................................................................................................... 11
   Comparability of Services ................................................................................................................... 11
Grantee Accountability ............................................................................................................................. 12
   California: San Diego Unified School District ................................................................................... 12
   New Jersey: Elizabeth Public School District .................................................................................... 12
   Ohio: Migrant Education Program ..................................................................................................... 13
   High Risk Grantees .............................................................................................................................. 13
Investigations ............................................................................................................................................ 14
   Alabama ............................................................................................................................................... 14
   Washington, D.C. ................................................................................................................................. 14
   Louisiana .............................................................................................................................................. 15
   Texas .................................................................................................................................................... 15
Financial Management and Department Operations .......................................................................... 16
Financial Management .............................................................................................................................. 16
   Financial Statement Audits .................................................................................................................. 16
   Drug Control Funds ............................................................................................................................. 17
Internal Operations .................................................................................................................................... 17
   Unimplemented Recommendations ..................................................................................................... 17
   Financial Disclosures ........................................................................................................................... 17
Investigations ............................................................................................................................................ 18
   Alabama ............................................................................................................................................... 18
HURRICANE-RELATED EFFORTS .................................................................................................. 19
Temporary Emergency Impact Aid Funds ................................................................................................ 19
   Georgia ................................................................................................................................................. 19
   Similar Findings in Other States .......................................................................................................... 20
Restart Funds ............................................................................................................................................ 20
   Louisiana .............................................................................................................................................. 20
   Findings in Other States ....................................................................................................................... 21
OTHER NOTEWORTHY EFFORTS .................................................................................................. 21
Hotline Posters .......................................................................................................................................... 21
Non-Federal Audits ................................................................................................................................... 21
President's Council on Integrity and Efficiency ....................................................................................... 21
   OIG Testifies for PCIE before U.S. Senate Subcommittee ................................................................. 22
   OIG Receives PCIE Alexander Hamilton Award ................................................................................ 22
   OMB Issues Best Practice Guide ......................................................................................................... 22
   PCIE/GAO 2008 Financial Statement Audit Conference .................................................................... 22
Reporting Requirements of the Inspector General Act, as amended ........................................................ 23
Table 1: Recommendations Described in Previous SARs on Which Corrective Action
            Has Not Been Completed ....................................................................................................... 24
Table 2: OIG Audit Services Reports on Department Programs and Activities
            (October 1, 2007, to March 31, 2008) .................................................................................... 25
Table 3: Other OIG Reports on Department Programs and Activities
            (October 1, 2007, to March 31, 2008) .................................................................................... 27
Table 4: Inspector General Issued Audit Reports with Questioned Costs............................................... 28
Table 5: Inspector General Issued Audit Reports with Recommendations For Better Use of Funds...... 29
Table 6: Unresolved Reports Issued Prior to October 1, 2007 ............................................................... 29
Table 7: Statistical Profile : October 1, 2007 to March 31, 2008 ........................................................... 33
        INSPECTOR GENERAL’S MESSAGE TO CONGRESS
We are pleased to provide this semiannual report on the activities and accomplishments of the Office of
Inspector General (OIG), U.S. Department of Education (Department) from October 1, 2007, through
March 31, 2008. The audits, inspections, investigations, and other activities highlighted in this report
illustrate our on-going commitment to promoting accountability, efficiency, and effectiveness in federal
education programs and operations.

Over the last six months, OIG issued 31 audit, inspection, and related reports. We identified over $45
million in questioned costs and over $5 million in unsupported costs. We closed 56 investigations, with
over $6 million in recoveries, restitutions, fines, settlements, and forfeitures/seizures, and savings to the
Department of over $10 million. As you will read in the pages of this report, our work identified a need for
the Department to improve its monitoring and oversight in the programs and operations we reviewed. This
conclusion was echoed in two reports released in March by the Government Accountability Office (GAO)
on the Department's monitoring and oversight of two unrelated programs. You will find more information
on the work we completed over the last six months in this report, including information on the third in our
series of reports on overpayments made by the Department to lenders at the 9.5 percent special allowance
payment rate.

Our audit report centered on the American Education Services/Pennsylvania Higher Education Assistance
Agency (AES/PHEAA) and found that AES/PHEAA may have received an estimated $35 million in
overpayments. Earlier this year, the Department issued its final determination on our AES/PHEAA audit,
agreeing with most but not all of our findings. On January 25, the Department sent a letter to AES/PHEAA
instructing officials to recalculate the subsidies it claimed on loans from October 2004 to September 2006
and to repay an estimated $14 million that it had inappropriately billed. Although we disagree with the
Department's decision not to sustain all of our findings, we are pleased it is moving ahead to recover a
substantial amount of loan subsidies improperly paid to AES/PHEAA. We currently have additional work
in this area underway to help ensure that taxpayer dollars are protected.

As you continue to work to reauthorize the Elementary and Secondary Education Act of 1965 (ESEA), as
amended by the No Child Left Behind Act of 2001, I would once again like to bring to your attention our
significant body of work on a number of key provisions of the law. Over the last seven years my office
released over 130 ESEA-related reports, providing recommendations for improving the administration of
the programs by the Department and its grantees. During this reporting period and based on our experience
with the administration of the ESEA programs, we identified the most significant issues and suggestions
that we believe can help improve accountability and integrity in ESEA programs. This information was
presented in a report entitled, An OIG Perspective on Improving Accountability and Integrity in ESEA
Programs. The report was provided to Congress in October 2007. This paper and other OIG final reports
can be accessed via our website at http://www.ed.gov/about/offices/list/oig/index.html. Interested
individuals may sign-up to receive email notification when a new report is issued by completing the
information requested at: http://www.ed.gov/about/offices/list/oig/areports.html.

While we have produced a substantial body of work in recent years, please know that we face significant
resource challenges in meeting the increased demand for our services. At our present funding level,
combined with the Department's limited administrative budget, which impacts its ability to provide
adequate monitoring and oversight of its programs and operations, we cannot assure the Congress or the
Department that these programs and operations are functioning as effectively and efficiently as they
should.

Increases in our budget, while significant and appreciated, have failed to keep up with increases in the cost
of doing business. In FY 1993, our full time employee (FTE) strength was at its highest in our history -
363 strong - when the Department had stewardship of over $190 billion. In FY 2007, our FTE was at 287
when the Department had responsibility for over $500 billion. Our current resources are spread so thin that
we continue to put on hold a number of planned audits and other assignments, as staff has been reassigned
to a growing number of statutory requirements and Congressionally-requested efforts.

As we have reported in our Semiannual Reports to Congress, OIG has historically recovered more on a
yearly basis than our annual budget; thus dedicating additional resources to this office is a good
investment. Such an investment would be one of the best ways to provide assurance to the Congress and
the Department that Department programs and operations are functioning as effectively and efficiently as
America's taxpayers demand and America's students deserve.

Finally, after nearly 40 years in federal service, including the last 28 with the OIG, I have made the decision
to retire effective July 1, 2008. It has truly been an honor to have been given the opportunity to serve
America's taxpayers and students in the role of Inspector General. Throughout my tenure, OIG has made
significant contributions that better enable the Department to meet its mission and promote educational
excellence throughout the nation. I am proud of our accomplishments and have enjoyed working with
Congress in furthering the goals of this office and achieving our vital mission.

Thank you again for your support and for allowing me to serve this country in such an important capacity.



                                                         John P. Higgins, Jr.
                                                         Inspector General
OVERVIEW
           We are pleased to provide this semiannual report on the activities and accomplishments of
           the Office of Inspector General (OIG), U.S. Department of Education (Department) from
           October 1, 2007, through March 31, 2008. The audits, inspections, investigations, and
           other activities highlighted in this report illustrate our on-going commitment to promoting
           accountability, efficiency, and effectiveness in federal education programs and operations.

           The success of an organization's mission and the achievement of its goals depend on how
           well it manages its programs, and it cannot effectively manage its programs without
           establishing and maintaining appropriate internal control. "Internal control" is the plans,
           methods, and procedures aimed at helping an agency meet its goals and achieve its
           objectives, while minimizing operational problems. In 1999, the Government
           Accountability Office (GAO) released Standards for Internal Control in the Federal
           Government that presents an overall framework to help federal government agencies
           establish and maintain internal control. It established five standards for internal control to
           help agencies establish and maintain effective internal control, as well as identify and
           address major performance challenges and areas at greatest risk of fraud, waste, and abuse.
           One of the five standards is monitoring - an activity that the GAO report says should occur
           in the course of normal business to assess the quality of performance. Work completed by
           OIG over the last six months identified a need for the Department to improve its
           monitoring and oversight in the programs and operations we reviewed. This conclusion
           was echoed in two reports released in March by the GAO on the Department's monitoring
           and oversight of two additional and unrelated programs.

           Our work continues to identify a similar need for improved monitoring and oversight by
           the Department's grantees and program participants reviewed during this reporting period
           in order to ensure that the federal education funds they receive are being used as required
           by law and regulations, and consistent with Department guidance. You will find more
           detailed information on this work in this report, which we have separated into four
           sections: work conducted in the area of student financial assistance; work conducted in the
           areas of elementary and secondary education; work specific to the Department's financial
           management and internal operations; and the hurricane-related audit work we conducted in
           response to recovery efforts in the wake of Hurricanes Katrina and Rita.

           With $82 billion awarded in fiscal year (FY) 2007 through the student financial assistance
           programs and an outstanding loan portfolio of close to $500 billion, the Department's
           Federal Student Aid office (FSA) must provide adequate monitoring and oversight of its
           programs, operations, and participants to help protect these taxpayer dollars from waste,
           fraud, and abuse. In the first section of this report, you will find summaries of our more
           significant work in this area, including information on the third in our series of reports on
           overpayments made by the Department to lenders at the 9.5 percent special allowance
           payment rate. This audit report centered on the American Education Services/
           Pennsylvania Higher Education Assistance Agency (AES/PHEAA) and found that AES/
           PHEAA may have received an estimated $35 million in overpayments. We also released
           an audit that found that FSA does not have a process in place to effectively monitor
           resolution of comment codes from its Central Processing System by institutions disbursing
           federal student financial assistance. This audit found that, with respect to $1.5 billion in


                                              1
                                                    Semiannual Report To Congress: #56

student financial aid disbursements, FSA did not have a record of whether institutions
resolved certain comment codes. In addition to detailed information on these findings, you
will also find summaries of our more significant investigative cases involving employees
of postsecondary institutions or corporations involved in higher education.

In the second section of this report, we provide a summary of our recent work in the area of
elementary and secondary education programs. In recent years, we have focused more of
our resources on reviewing elementary and secondary education programs and program
participants. Over the last seven years, OIG has released over 130 reports related to the
Elementary and Secondary Education Act of 1965 (ESEA), providing recommendations
for the Department and, when applicable, Congress, to improve the Department's
administration of the programs or that of its grantees. During this reporting period, we
released a report that identified the most significant issues and suggestions that we believe
can help improve accountability and integrity in ESEA programs. This information was
presented to Congress in a report entitled An OIG Perspective on Improving Accountability
and Integrity in ESEA Programs. The highlights, along with summaries of our more
significant efforts in the elementary and secondary education area, can be found in this
section of the report. As you will see, our work identified a need for the Department to
improve its oversight and monitoring in the programs we reviewed. We found much of the
same with the grantees we audited, where ineffective monitoring and oversight can impact
a state educational agency's (SEA) and local educational agency's (LEA) ability to meet
statutory requirements. Also in this section are summaries of our more significant
investigative cases involving misuse of federal education funds by individuals, including
teachers, school superintendents, and other officials.

In the third section of this report are highlights of the audits and reviews we completed on
the Department's financial management and internal operations, areas where effective
oversight and monitoring reduce an agency's vulnerability to waste, fraud, and abuse. In
2007, the Department received a "clean" audit opinion on its financial statements for the
sixth year in a row. While this accomplishment is noteworthy, the audits did reveal that a
renewed focus is warranted regarding program monitoring activities, credit reform
estimates and financial reporting, and noted repeat control weaknesses within information
technology (IT) security and systems indicating the need to address the root causes of
security or control weaknesses uniformly across the organization. In addition, OIG
completed work on two Congressionally-directed requests related to internal operations.
The findings of these efforts can be found in this section of the report, along with a
summary of an investigative case involving a former employee of a Department contractor.

With regard to Section 845 of the National Defense Authorization Act for Fiscal Year
2008, which requires each OIG to include information in its Semiannual Reports to
Congress on final contract-related audit reports that contain significant findings, OIG did
not issue any such report over the last six months. In the future, we will include
summaries of such reports in the "Internal Operations" section of our report.

In the fourth section of our report, we provide summaries of our audit products related to
hurricane-related education funds. As reported in our previous Semiannual Reports to
Congress, OIG conducted a series of audits to determine whether Hurricane Education
Recovery Act (HERA) funds were expended as required by federal law, regulations, and
Department guidance. Congress allotted over $1.9 billion for the HERA programs we


                                   2
                                                              Semiannual Report To Congress: #56

         reviewed. During this reporting period, we released our final two HERA-related audits.
         Our findings were consistent with work conducted and reported on in other states. You
         will find more details on our overall work in this section of the report.

         OIG constantly strives to improve its operations through our work with the IG community.
         In the fifth section of this report, we highlight a number of our contributions and
         accomplishments over the last six months within the IG community, which includes OIG
         testifying on behalf of the President's Council on Integrity and Efficiency (PCIE) before a
         U.S. Senate Subcommittee on the PCIE's National Single Audit Sampling Project and
         OIG's receipt of the prestigious PCIE Alexander Hamilton Award for Excellence.

         In the sixth and final section of this report, there is a compilation of tables of the audits,
         inspections, and investigations we concluded during this reporting period, as required by
         the Inspector General Act of 1978, as amended.

         Copies of the reports discussed in this Semiannual Report may be found on the OIG
         website at http://www.ed.gov/about/offices/list/oig/index.html. Interested individuals may
         sign-up to receive email notification when a new report is issued by completing the
         information requested at: http://www.ed.gov/about/offices/list/oig/areports.html.

         For more information on the work or activities discussed in this report, please contact the
         OIG Congressional Liaison at (202) 245-7023, or visit our website at http://www.ed.gov/
         about/offices/list/oig/index.html.


STUDENT FINANCIAL ASSISTANCE PROGRAMS
         The federal student financial assistance programs involve over 6,000 postsecondary insti-
         tutions, more than 3,000 lenders, 35 guaranty agencies, and many third party servicers.
         During FY 2007, FSA provided $82 billion in awards and managed an outstanding loan
         portfolio of close to $500 billion. As the office responsible for administering these pro-
         grams, FSA must conduct effective monitoring and oversight of programs, operations, and
         participants to help protect higher education dollars from waste, fraud, and abuse. Work
         concluded over the last six months identified weaknesses in FSA's monitoring in the pro-
         grams we reviewed and a need for the Title IV program participants we audited to ensure
         that the federal education funds they receive are spent in accordance with applicable law,
         regulations, and Department guidance.

         In addition, OIG investigative staff continues to identify and pursue cases of theft of stu-
         dent financial assistance, especially by those in positions of trust in America's schools.
         Summaries of these reports and examples of our work in this area are highlighted below.




                                             3
                                                                   Semiannual Report To Congress: #56


               Special Allowance Payments
AMERICAN       In November, we released our audit of AES/PHEAA, where we sought to determine
EDUCATION      whether AES/PHEAA billed for certain special allowance payments in compliance with
SERVICES/      the requirements in the Higher Education Act of 1965, as amended (HEA) and regulations,
PENNSYLVANIA   and consistent with other guidance issued by the Department, for the period July 1, 2003,
HIGHER         through June 30, 2006.
EDUCATION
ASSISTANCE     Special allowance payments are made to lenders on certain loans in the Federal Family
AGENCY         Education Loan (FFEL) Program to ensure that lenders receive an equitable return on their
               loans. In general, the amount of a special allowance payment is the difference between the
               amount of interest the lender receives from the borrower or the government and the
               amount that is provided under requirements in the HEA. The HEA includes a special
               allowance calculation for loans that are funded by tax-exempt obligations issued before
               October 1, 1993. The quarterly special allowance payment for these loans may not be less
               than 9.5 percent, minus the interest the lender receives, divided by four. We refer to this
               calculation as the "9.5 percent floor." When interest rates are low, the 9.5 percent floor
               provides a significantly greater return than lenders receive for other loans.

               Our audit found that AES/PHEAA's billing did not comply with requirements for the 9.5
               percent floor. AES/PHEAA's billing under the 9.5 percent floor-
               • Included loans that were refinanced after September 30, 2004, by taxable obligations
               and ineligible tax-exempt obligations. Under amendments to the HEA in the Taxpayer-
               Teacher Protection Act of 2004, these loans are not eligible for the 9.5 percent floor. We
               estimate that this non-compliance resulted in special allowance overpayments of about
               $14 million.
               • Included loans that were funded by tax-exempt obligations issued on or after October 1,
               1993. We determined that, under the HEA, loans funded by these obligations are not eligi-
               ble for the 9.5 percent floor. We estimate that this non-compliance resulted in special
               allowance overpayments of about $21 million. (About $1.5 million of this amount is also
               in the overpayment listed above.)
               • For the quarter ended March 31, 2006, contained two errors, which resulted in special
               allowance overpayments of about $134,000.
               • Created a significant risk that loans billed by AES/PHEAA under the 9.5 percent floor
               were ineligible for that calculation because they were not eligible first-generation or sec-
               ond-generation loans. AES/PHEAA had no controls in place to ensure that the loans
               billed under the 9.5 percent floor were funded by the eligible sources of funds identified in
               law and regulation. Since the Department has stated that it will not seek repayment of
               prior improper payments if a lender agrees to certain terms--which include a separate
               independent audit-and since a separate independent audit is in process to identify AES/
               PHEAA's eligible first-generation and second--generation loans, we did not determine the
               extent to which AES/PHEAA's 9.5 percent floor billings included only eligible first-gen-
               eration and second-generation loans.

               In addition, we confirmed with AES/PHEAA that, other than in the change request forms
               it used to update its systems, it had no documented policies and procedures for the



                                                  4
                                                                  Semiannual Report To Congress: #56

              processes it used to manage its student loan portfolio. This lack of written policies and
              procedures may have caused its non-compliance and billing errors.

              Based on our findings, we recommended that FSA instruct AES/PHEAA to return the
              special allowance overpayments we describe in our report, stop billing under the 9.5
              percent floor for ineligible loans, and document and implement policies and procedures for
              managing its student loan portfolio. AES/PHEAA did not concur with our findings and
              recommendations.

              Earlier this year, the Department issued its final determination on our AES/PHEAA audit,
              agreeing with most but not all our findings. On January 25, the Department sent a letter to
              AES/PHEAA instructing officials to recalculate the subsidies it claimed on loans from
              October 2004 to September 2006 and to repay an estimated $14 million that it had
              inappropriately billed. The Department, however, did not agree with our finding on loans
              funded by post-October 1, 1993, tax-exempt obligations because it concluded that loans
              refinanced prior to September 30, 2004, by these tax-exempt obligations remained eligible
              for the 9.5 percent floor unless the prior tax-exempt obligation used to acquire the loan
              was retired or defeased. Although we disagree with the Department's determination on
              this finding, we are pleased that the Department is moving ahead to recover a substantial
              amount of loan subsidies improperly paid to AES/PHEAA. We are currently conducting
              more work in this area to help ensure that taxpayer dollars are protected. Click here for a
              copy of our report.


              FSA Operations
CENTRAL       We conducted an audit to evaluate the effectiveness of the Department's processes for:
PROCESSING    (1) ensuring that institutions resolve comment codes generated by the Department's system
SYSTEM EDIT   for processing applications for federal student aid; and (2) monitoring and using data from
CHECK         comment codes. The Central Processing System (CPS) receives and processes student
              financial assistance application and correction information and initiates the process of
              determining the applicant's eligibility for aid. CPS generates and sends reports to the stu-
              dent applicant and the postsecondary institutions that are listed on the student's Free Appli-
              cation for Federal Student Aid (FAFSA). The reports contain comment codes that point
              out possible missing or inconsistent data that affect student aid eligibility such as student
              aid overpayments, citizenship, registration for Selective Service, drug convictions, or loan
              limits. Institutions are required to resolve these comment codes before disbursing federal
              student aid.

              Our audit found that FSA does not have a process to effectively monitor comment codes
              known as Institution Student Information Report/Student Aid Report (ISIR/SAR) "C
              codes," does not use C code data to determine which institutions should be selected for
              program reviews based on high occurrences of these codes, and does not have a tracking
              mechanism to monitor institutions with high occurrences of C codes. Because FSA does
              not track or monitor whether the institution maintained documentation on C code resolu-
              tion, the number of unresolved C codes identified in our analysis indicates that institutions
              may not be resolving all C codes. As a result, we determined that for the time period


                                                  5
                                                                  Semiannual Report To Congress: #56


             reviewed, over $1.5 billion of federal student financial assistance was disbursed to stu-
             dents whose eligibility may have been affected if C codes related to citizenship, Selective
             Service registration, Pell Grant overpayments, and loan limits were not appropriately
             resolved.

             We made several recommendations aimed at improving the edit check process, including
             that FSA periodically obtain reports to track the frequency of C codes by schools and iden-
             tify institutions that are not resolving those codes, and that FSA use the reports to select
             institutions for a program review that focuses solely on the resolution of C codes. We also
             recommended that FSA develop and implement a policy that requires follow-up with insti-
             tutions that have excessively high rates of unresolved C codes.

             FSA did not specifically state whether it concurred with our finding and related recom-
             mendations; however, it did state that its current audit resolution and program review pro-
             cesses for monitoring the resolution of C codes are very effective, indicating that it did not
             concur with our finding. In addition, FSA stated that the risk to over $1.5 billion suggested
             by our report is overstated, as the occurrence of C code data alone does not support our
             contention that institutions may not be resolving these codes. We did not alter our findings
             or recommendations based on FSA's comments, as the absence of findings in the audit or
             program review reports reviewed by FSA cannot support a conclusion that the risk associ-
             ated with unresolved C codes is overstated. Cick here for a copy of our report.


             Title IV Program Participants
CAPELLA      Capella University (Capella) is a proprietary school headquartered in Minneapolis, Minne-
UNIVERSITY   sota. Capella provides all of its instruction online and does not have any "brick and mor-
             tar" classroom facilities. Capella currently offers more than 700 online courses that are
             part of certificate, undergraduate and graduate degree programs in more than 80 special-
             ized areas of study. We conducted an audit to determine whether Capella complied with
             selected provisions of the HEA and regulations governing: (1) the return of Title IV pro-
             gram funds; (2) FFEL and Pell Grant disbursements; (3) institutional eligibility; (4) pro-
             gram eligibility; and (5) student eligibility. For the time period reviewed, Capella received
             over $328 million in Title IV funding.

             Overall, we found that Capella generally complied with the provisions of the HEA and
             regulations governing institutional eligibility, program eligibility, and student eligibility;
             however, it did not comply with the provisions of the HEA and regulations governing
             return of Title IV program funds and FFEL and Pell Grant disbursements. Capella did not
             return all funds disbursed on behalf of students who dropped before the first day of class of
             the payment period. Capella lacked documentation of the students’ attendance for its on-
             line programs, thus it returned about $588,000 less than it should have. Capella also dis-
             bursed FFEL and Pell Grants to students who were not enrolled in an eligible program at
             the time of the disbursement. As a result, it had the use of about $3.5 million in federal
             funds every quarter for 2 to 10 days, and the Department may have made unnecessary


                                                 6
                                                                   Semiannual Report To Congress: #56


              interest and special allowance payments related to these funds.

              As a result of our findings, we made a number of recommendations, including that FSA
              require Capella to review its files and return the improperly retained Title IV funds, as well
              as develop and implement policies and procedures to provide reasonable assurance that
              funds are not disbursed to students who are not enrolled. Capella officials did not concur
              with all of our findings. Click here for a copy of the report.

WILBERFORCE   We conducted an audit to determine whether Wilberforce University (Wilberforce),
UNIVERSITY    located in Ohio, complied with select provisions of the HEA and regulations governing the
              return of Title IV funds, student eligibility, disbursements, and award calculations. During
              the time period reviewed, Wilberforce disbursed over $21 million for these programs and
              we identified significant instances of noncompliance in all of these areas.

              Among our findings: Wilberforce did not return over $61,900 in unearned Title IV funds;
              did not administer the Federal Work Study program in accordance with the HEA and regu-
              lations, resulting in payment of over $2.3 million in wages that lacked adequate supporting
              documentation; and disbursed over $38,600 in Title IV funds to ineligible students. We
              determined that Wilberforce did not comply with the Title IV requirements because it was
              not administratively capable. Wilberforce experienced significant staff turnover and
              lacked sufficient financial aid staff, and failed to develop and implement written policies
              and procedures. It also did not maintain all records needed to demonstrate compliance
              with the HEA and applicable regulations and did not ensure sufficient communication
              between the financial aid office and all other institutional offices at the school.

              We made a number of recommendations, including that FSA place Wilberforce on provi-
              sional certification and the reimbursement payment method, and that it take appropriate
              action to fine, limit, suspend, or terminate Wilberforce's participation in the Title IV pro-
              grams. Wilberforce did not concur with any of our findings and disagreed with all of our
              recommendations, except those involving implementation of written policies and proce-
              dures. Click here for a copy of the report.

HERZING       Herzing College-Madison (HCM) is one of the Herzing Corporation's proprietary schools
COLLEGE-      located in Madison, Wisconsin. During this reporting period, we reviewed HCM's compli-
MADISON       ance with the HEA and regulations governing: (1) general student eligibility; (2) return of
              Title IV funds; (3) institutional eligibility requirements under the 90/10 rule; and (4) Fed-
              eral Perkins (Perkins) loan collections. For the time period reviewed, HCM received over
              $12.2 million in Title IV funds for these programs.

              While we found that HCM generally complied with the HEA and regulations for the bulk
              of these programs, HCM did not always comply with the requirements governing Perkins
              loan collections. Specifically, HCM did not always promptly convert Perkins loan bor-
              rowers to repayment or provide the required exit counseling when borrowers ceased
              attending the school at last half time. Based on our finding, we recommended that FSA
              require HCM to review its files and ensure that all impacted students received the required


                                                  7
                                                                    Semiannual Report To Congress: #56


              Perkins loan notifications, and confirm that it is providing exit counseling in accordance
              with federal regulations. HCM officials concurred with our finding and agreed with our
              recommendations. Click here for a copy of our report.

VATTEROTT     Vatterott College, Des Moines (VC-DM) located in Iowa, is one of Vatterott Educational
COLLEGE-DES   Centers Corporation's private career colleges. We conducted an audit to determine VC-
MOINES        DM's compliance with the HEA and regulations governing student eligibility (high school
              diplomas and General Education Development (GED) certificates only) and return of Title
              IV funds. VC-DM received over $11.4 million in Title IV program funding for the time
              period we reviewed.

              Our work revealed that while VC-DM complied with requirements governing student eli-
              gibility and generally complied with requirements governing the return of Title IV funds,
              its L'Ecole Culinaire location did not include all charges in its return of Title IV calcula-
              tions, and none of VC-DM's locations maintained documentation of students' official
              notice of withdrawal. Specifically, we found that L'Ecole Culinaire did not include uni-
              forms, books, and supplies as institutional charges in return to Title IV calculations for the
              2006-2007 award year. Instead, it treated these materials as non-institutional charges with-
              out substantiating that students were provided a real and reasonable opportunity to pur-
              chase the materials from an alternative source. School officials said they were not fully
              aware of the requirement and believed they were complying with the regulations. In addi-
              tion, VC-DM did not maintain adequate documentation of students' official notifications of
              withdrawal. Not maintaining this documentation could have an effect on the withdrawal
              date used in return to Title IV calculations.

              We recommended that FSA require VC-DM to either substantiate that L'Ecole Culinaire
              provided students a real and reasonable opportunity to purchase materials from an alterna-
              tive source and maintain documentation of students' official notifications of withdrawal or
              return any amounts to the Department or FFEL lenders as appropriate. VC-DM officials
              did not agree with all of our findings or recommendations. Click here for a copy of our
              report.


              Investigations
              Identifying and investigating fraud and abuse in the student financial assistance programs
              has always been a top OIG priority. The following are summaries of some of our more sig-
              nificant cases of student financial assistance fraud conducted over the last six months
              involving school officials and student loan servicers.

CALIFORNIA    Former Financial Aid Director of the University of West Los Angeles Law School and
              Two Middlemen Pled Guilty in $1.3 Million Fraud Scheme. The former financial aid
              director at the University of West Los Angeles (UWLA) Law School and two middlemen
              pled guilty in U.S. District Court, Central District of California, to charges related to a $1.3
              million student aid fraud scheme. Our investigation disclosed that the former financial aid


                                                   8
                                                                 Semiannual Report To Congress: #56


              director entered into an agreement with the two middlemen to recruit individuals to partic-
              ipate in the scheme. The participants, who were not enrolled in the school and did not plan
              to enroll in the school, were given applications to apply for student aid, which they com-
              pleted and returned to one of the middlemen, which were then returned to the former finan-
              cial aid director. The former financial aid director required most of the loan recipients to
              kick-back approximately 50 percent of the loan amount. To date, 19 individuals have been
              charged for their roles in this scheme.

              Former Westwood College Admissions Representatives Sentenced for Fraud. Two
              former Westwood College admission representatives were sentenced in U.S. District
              Court, Central District of California, for student financial aid fraud. Our investigation
              revealed that the two fraudulently caused student financial aid funds to be paid to West-
              wood College on behalf of ineligible students. The two representatives caused students to
              state falsely on admissions and financial aid applications that they were high school gradu-
              ates or had completed high school equivalency programs, when in truth, they had not. In
              fact, the two officials knew that the students had not graduated from high school or com-
              pleted such a program, and prepared phony high school diplomas, GED certifications and
              other materials to support the fraudulent claims. Both were sentenced to six months of
              home detention, 250 hours of community service, and are prohibited from being employed
              in any job in which they would submit documentation to a federal agency during the
              course of that employment. They also received fines ranging from $500 to $2,000.

CONNECTICUT   Loan Management Consultant Pled Guilty to Fraud. A consultant employed by a
              school in Branford, Connecticut, pled guilty in U.S. District Court, Northern District of
              New York, to charges related to student financial aid fraud. Our investigation revealed that
              the consultant, who was hired to provide default prevention services to the school, forged a
              signature on an application for deferment of a student loan and submitted it to the Direct
              Loan Servicing Center for processing.

ILLINOIS      Co-Founder and Former President of Native American Educational Services Sen-
              tenced. The co-founder and former president of Native American Educational Services
              (NAES) was sentenced in U.S. District Court, Northern District of Illinois, to five years of
              probation and 1,000 hours of community service and was ordered to pay over $91,700 in
              restitution for theft from a program receiving federal funds. Our investigation revealed
              that from 2001 through 2004, multiple signatures were forged on NAES checks and the
              funds diverted for this individual's personal use. The investigation determined that the
              former official used these funds to pay debts.

NEW YORK      Three Teachers and Others Sentenced in Transcript Tampering Scheme at Touro
              College. As a result of our joint investigation with the New York City Police Department
              and the Manhattan District Attorney's Office, three New York City Public School teachers
              were sentenced for participating in a fraudulent transcript scheme. Each teacher con-
              fessed to paying $3,000 in exchange for a fraudulent transcript indicating that they had
              received master's degrees from the school. The teachers subsequently submitted the fraud-
              ulent transcripts to the New York City Department of Education to further their teaching


                                                 9
                                                                  Semiannual Report To Congress: #56


               careers. The three were each sentenced to serve 8 days of community service and ordered
               to pay $160 in fees. They were also suspended from their teaching positions pending a ter-
               mination hearing. Two additional individuals were also sentenced for bribing Touro Col-
               lege officials in order to obtain degrees without ever attending the school. Both
               individuals were sentenced to serve 7 days of community service and were ordered to pay
               $1,000 in fines and $160 in fees.

OKLAHOMA       DeMarge College Agrees to $231,000 Civil Settlement. DeMarge College, Inc.
               (DeMarge), entered into a civil settlement with the U.S. Attorney's Office for the Western
               District of Oklahoma, agreeing to pay over $231,000 to the Department. The settlement is
               a result of our investigation that found that DeMarge falsified student hours of attendance
               and other documentation necessary to increase the amount of Title IV funds the institution
               received/retained. The investigation further found that DeMarge falsified various student
               records to deceive the Department and impede a federal audit.

PENNSYLVANIA   Career Education Corporation Agrees to $2.2 Million Civil Settlement. Career Edu-
               cation Corporation (CEC) entered into a civil settlement agreement with the U.S. Attor-
               ney's Office, Western District of Pennsylvania, agreeing to repay the Department more
               than $2.2 million. The settlement came about as a result of our investigation that found
               that a former official at the Western School of Health of Business Careers (WSHBC)
               forged approval documents in order to secure Title IV funding for several of its programs.
               Those documents included letters purported to be from the Accrediting Commission of
               Career Schools and Colleges of Technology (ACCSCT) stating that the programs at the
               WSHBC were approved. CEC purchased the WSHBC in 2003 and was assured that all of
               the education programs offered by the school were fully accredited and approved and pro-
               vided documentation related thereto. In early 2004, after its routine change of ownership
               review at the WSHBC, ACCST sent a letter to the CEC indicating that several of the
               WSHBC programs were not approved, and that several of letters in CEC's possession pur-
               portedly from the ACCST were forgeries. The former official pled guilty to charges
               related to his role in the scheme.


ELEMENTARY AND SECONDARY EDUCATION PROGRAMS
               In our last Semiannual Report to Congress, we discussed a need for the Department to
               improve oversight and monitoring of its elementary and secondary education programs
               and program participants to ensure that vital federal education dollars are used as the law
               and regulations require. Work concluded during this reporting period shows this area con-
               tinues to challenge the Department in the programs we reviewed, as well as with the SEAs
               and LEAs we reviewed. Ineffective monitoring and oversight can have a significant
               impact on SEAs' and LEAs' ability to meet statutory requirements and ensure critical edu-
               cation funds reach the intended recipients. You will find more on our reports and findings
               below, as well as summaries of our more significant investigations involving individuals in
               a position of trust to educate our children.



                                                 10
                                                                    Semiannual Report To Congress: #56


                ESEA/NCLB
ESEA            When enacted in January 2002, the NCLB reauthorized the ESEA and strengthened the
PERSPECTIVE     flexibility and accountability that were embodied in the Improving America's School Act of
PAPER           1994. The NCLB called for stronger accountability for results; greater flexibility for
                states, school districts, and schools in their use of federal funds; more choices for parents
                of children from disadvantaged backgrounds; and an emphasis on teaching methods that
                have been demonstrated to work.

                During the last several years, OIG has completed a substantial body of work on a variety of
                the law's programs and topics. We also participated in the U.S. Comptroller General's
                Domestic Working Group and ESEA-related conferences; collaborated with the GAO, as
                well as state and local audit agencies on the key topic of state assessments and accountabil-
                ity; and worked with the Department on a number of oversight and program issues, includ-
                ing grant monitoring, high-risk grantees, and the Migrant Education Program (MEP). We
                have performed audits, inspections, and investigations at SEAs, LEAs, schools, and con-
                tractors' offices in most of the states and insular areas.

                In anticipation of the next reauthorization of the ESEA, based on our experience with the
                administration of ESEA/NCLB programs over the last seven years, OIG released a report
                entitled An OIG Perspective on Improving Accountability and Integrity in ESEA Pro-
                grams. The paper identifies five emerging issue areas that we believe, based on our work,
                the reauthorized ESEA should strive to address to improve accountability and integrity in
                ESEA programs. Those issues are:
                • The need for essential and clear requirements, with an added need for consistent
                requirements across programs;
                • The need for valid and reliable data quality;

                • The need for improved monitoring and oversight;

                • Improprieties in state and local programs; and

                • Program-specific issues.

                The paper provides specific suggestions for the Department and Congress to take to help
                improve accountability and integrity in these areas, and also includes a Compendium of
                OIG products relating to ESEA/NCLB, summarizing our findings and recommendations.
                The paper was provided to the Department and Congress for review and consideration in
                October 2007. Click here for a copy of the report.

COMPARABILITY   "Comparability of services" is a provision of the ESEA/NCLB that requires LEAs to pro-
OF SERVICES     vide services to Title I schools that are essentially "comparable" or "the same" as the ser-
                vices that are provided to non-Title I schools. The SEAs are to provide leadership and
                guidance to LEAs in implementing all Title I provisions and the Department is responsible
                for conducting monitoring reviews of the SEAs' performance. The Department states it
                uses clear and consistent criteria (monitoring indicators) to determine the degree of imple-
                mentation of SEA programs and activities, consisting of two major components: the desk


                                                   11
                                                                      Semiannual Report To Congress: #56

                   review monitoring process and the on-site review. As reported in previous Semiannual
                   Reports to Congress, we conducted comparability audits at three SEAs: the Ohio Depart-
                   ment of Education; the Arizona Department of Education; and the Illinois State Board of
                   Education. All three audits disclosed that the SEAs and LEAs were inconsistent in their
                   policies and procedures for collecting, reviewing, and reporting comparability data, and
                   that LEAs were not always reporting complete and accurate comparability information.
                   As a result, some LEAs improperly classified some schools as comparable when they were
                   not, resulting in non-compliant schools receiving Title I, Part A, funds in violation of the
                   law.

                   During this reporting period, we reviewed these audits and reported that there are areas
                   where the Department could improve the effectiveness and efficiency of its monitoring and
                   guidance concerning the comparability requirement. We suggested that the Department
                   revise its guidance to include: monitoring suggestions that the SEA should complete while
                   at the LEAs; language that prohibits LEAs from using inflated, budgeted resources in its
                   comparability calculations; a statement that LEAs should maintain source documentation
                   that supports the data used to complete the comparability calculations; and language that
                   requires SEAs to establish specific deadlines for when LEAs must determine their compa-
                   rability calculations and complete the necessary corrective actions. The Department
                   agreed with most of our suggestions. Click here for a copy of our report.


                   Grantee Accountability
CALIFORNIA: SAN    We conducted an audit of the San Diego Unified School District's (SDUSD) use of federal
DIEGO UNIFIED      funds for costs of its Supplemental Early Retirement Plan (SERP) that sought to determine
SCHOOL DISTRICT    whether SDUSD's charges to federal programs for SERP payments met applicable require-
                   ments under Office of Management and Budget (OMB) Circular A-87, Cost Principles for
                   State, Local, and Indian Tribal Governments. Our review covered SERP costs charged to
                   federal programs.

                   Our audit found that for the time period reviewed, SDUSD's charges did not meet the
                   applicable requirements. Specifically, SDUSD did not obtain the required prior Depart-
                   ment approval to charge SERP costs to federal programs and mistakenly concluded that
                   SERP costs could be charged to federal programs as a fringe benefit that did not require
                   Department approval. As a result, SDUSD improperly charged over $3.1 million of SERP
                   costs to federal programs. Of that amount, about $1.9 million was charged to Department
                   programs. As a result of our findings, we recommended that the Department require the
                   California Department of Education (CDE) to ensure that SDUSD returns to its federal
                   education program accounts or the Department, as appropriate, the more than $1.9 million
                   of SERP costs and related indirect costs charged to federal education programs. CDE did
                   not concur with our findings or recommendation. Click here for a copy of the report.

NEW JERSEY:        During this reporting period, we concluded an audit that sought to determine whether the
ELIZABETH PUBLIC   Elizabeth Public School District's (Elizabeth) ESEA, Title I, Part A expenditures, distrib-
SCHOOL DISTRICT    uted through the New Jersey Department of Education (NJDOE), were allowable in accor-
                   dance with applicable laws and regulations. For the time period reviewed, Elizabeth
                   received $8.3 million in Title I funding.



                                                     12
                                                                    Semiannual Report To Congress: #56

                Our work revealed that Elizabeth did not fully comply with applicable laws and regula-
                tions. Specifically, it charged over $822,000 in unsupported salary and non-salary expen-
                ditures to Title I and used over $618,000 of its Title I funds for unallowable purposes.
                Elizabeth also used over $505,000 in Title I funds to supplant non-federal funds for its
                after-school program. In addition, we concluded that Elizabeth did not maintain effective
                internal controls over its federal funds. Based on our findings, we made 13 recommenda-
                tions, including that the Department instruct the NJDOE to require Elizabeth to provide
                support for the over $822,000 in salary and non-salary expenditures or return the funds,
                with applicable interest, to the Department and implement procedures to provide for the
                proper disbursement of and accounting for Title I expenditures. The NJDOE concurred
                with most of our recommendations. Click here for a copy of our report.

OHIO: MIGRANT   The MEP, authorized within the ESEA/NCLB, provides funds to states to support high
EDUCATION       quality education programs for migratory children and helps to ensure that migratory chil-
PROGRAM         dren who move among the states are not penalized by disparities among states in curricu-
                lum, graduation requirements, or academic content and student academic achievement
                standards. MEP funds are allocated to SEAs based on each state's per pupil expenditure
                for education and counts of eligible migratory children residing within the state. During
                this reporting period, we concluded an audit in Ohio to determine whether the Ohio
                Department of Education (ODE) administered MEP funds in accordance with grant
                requirements and federal laws and regulations specific to the allocation of funds to sub-
                grantees, and the monitoring of subgrantees' use of those funds.

                We found that ODE did not always allocate subgrants to local operating agencies (LOAs)
                in accordance with grant requirements. Specifically, the formula outlined in its approved
                application for MEP funds was not always used to determine subgrant allocations for the
                award years reviewed, and ODE did not document how the allocation amount was
                reached. In addition, ODE's monitoring procedures did not ensure the proper administra-
                tion of the MEP. Further, ODE's inadequate oversight of contracts resulted in a conflict of
                interest in the contracts, ODE making contract payments for inaccurate re-interviews, and
                reducing the scope of work without adjusting the contract price. Also, one of the LOAs we
                visited was not in compliance with the priority for services and parent advisory council
                requirements. Based on our findings, we made a number of recommendations, including
                that the Department require ODE to develop and implement procedures to ensure it keeps
                documentation for its MEP subgrant allocation process. ODE did not agree with all of our
                findings. Click here for a copy of the report.

HIGH RISK       Virgin Islands Department of Education
GRANTEES
                In 2002, the Department designated the Virgin Islands Department of Education (VIDE) as
                a "high-risk grantee" denoting that the grantee or subgrantee has a history of unsatisfactory
                performance or has not conformed to the terms and conditions of previous awards. As a
                result,VIDE entered into a three-year comprehensive Compliance Agreement with the
                Department in order for the two to develop integrated and systemic solutions to VIDE's
                problems with managing federal education funds and programs. As VIDE did not comply
                with the terms and conditions of the 2002 Compliance Agreement, it was required to hire a
                third-party fiduciary to manage all grant funds starting with the 2004 awards.




                                                   13
                                                                  Semiannual Report To Congress: #56

              In December 2005, VIDE requested the Department's approval to reopen the 2003 Consol-
              idated Grant, which is a single proposal for multiple funding sources. The Department
              responded to VIDE in February 2006 and requested that VIDE provide the amount obli-
              gated, the amount to be drawn, a reason for the need to reopen, an attestation that the obli-
              gations were valid and that the costs were allowable, and an explanation of the failure to
              liquidate funds in a timely manner. VIDE submitted a brief letter stating that it had more
              than $4.9 million in expenditures that could be charged to the 2003 Consolidated Grant.
              The Department approved the request to reopen the 2003 Consolidated Grant on March 24,
              2006, and VIDE made three drawdowns totaling over $3.9 million.

              During this reporting period, we concluded an audit to determine whether VIDE had suffi-
              cient evidence of obligations to support its request to reopen the 2003 Consolidated Grant.
              We found that VIDE did not have sufficient evidence, as it did not have documentation to
              support over $1 million of the $4.9 million requested. In addition, VIDE did not include
              an additional $1.3 million available for liquidation because it did not reconcile the grant
              balances. Therefore, $2.3 million of the 2003 Consolidated Grant may lapse. Based on
              our findings, we recommended that the Department require VIDE to provide additional
              documentation of the type and amount of expenditures when submitting a request to
              reopen a grant for late liquidation and ensure financial data is accurate, verified, and
              reconciled before it is provided to the Department. VIDE concurred with our findings and
              recommendations. Click here for a copy of the report.


              Investigations
              Our investigations into suspected fraudulent activity by SEAs, LEAs, and other federal
              education grantees have led to the arrest and conviction of a number of individuals for
              theft or misuse of federal education funds. We will continue to aggressively pursue those
              who seek to defraud federal education programs at the expense of our nation's students.
              Here are a few examples of our work in this area over the last six months.

ALABAMA       Former Alabama Principal Sentenced. A former high school principal was sentenced in
              U.S. District Court, Southern District of Alabama, to five years of probation and was
              ordered to pay $1,200 in restitution for charges relating to fraud involving Title I funds.
              Our investigation revealed that in 2005, the former principal was appointed to oversee the
              distribution of over $223,000 in Title I funds that were designated for professional devel-
              opment seminars. Within three weeks of his employment, the former principal fraudu-
              lently converted portions of those funds to his own personal use by filing reimbursement
              claims for teachers and others for providing services at the seminars -- services that were
              never provided. After reimbursement checks were mailed to those individuals, the former
              principal contacted the individuals and collected a portion of each reimbursement check.

WASHINGTON,   Former Executive Director of the District of Columbia's Office of Charter School
D.C.          Oversight Sentenced. The former Executive Director for the District of Columbia's
              Office of Charter School Oversight was sentenced to 35 months in prison and was ordered
              to pay over $383,000 in restitution in connection with a scheme to embezzle hundreds of
              thousands of dollars from D.C. public charter schools. Our investigation found that from
              March 2003 through May 2006, the former official used her position to direct money
              belonging to the District of Columbia Public Schools to her personal bank accounts and

                                                 14
                                                                Semiannual Report To Congress: #56

            her daughter's personal bank account to which she had access. Over three years, she
            wrongfully paid herself more than $383,000. She also used her position to improperly
            obligate seven no-bid contracts to family members and friends totaling more than
            $444,000. In addition, the former official also used a fictitious business name to fraudu-
            lently obtain more than $203,000.

            Former Internal Audit Director for the District of Columbia Public Schools Pled
            Guilty to Theft. The former Internal Audit Director for the District of Columbia Public
            Schools pled guilty in U.S. District Court, District of Columbia, to theft from a program
            receiving federal funds. The investigation disclosed that the former official was responsi-
            ble for closing out the financial accounts of the New Vistas Charter School after the
            school's charter was revoked. The former official closed the original account and trans-
            ferred the balance of over $500,000 into a new account and made himself the sole signator
            on the account. Several months later, the former official was terminated from his employ-
            ment, but he did not close the account prior to that termination. Instead, the former official
            made unauthorized expenditures of more than $46,000 in cash.

LOUISIANA   Two Former Orleans Parish Employees Sentenced. A former Orleans Parish School
            System (OPSS) special education teacher and an OPSS assistant secretary were convicted
            after a seven day trial on charges relating to a scheme to illegally obtain OPSS funds. Our
            investigation revealed that the scheme involved fraudulently altering class coverage sheets
            of hours worked by teachers, submitting them for payment, and receiving a monetary kick-
            back from the illicit proceeds. The former teacher and the former assistant secretary
            approached others to participate in the scheme making it clear to at least one potential
            recruit that if the individual did not participate, the assistant secretary could exclude or
            reduce the assignment of class coverage hours. The former assistant secretary was sen-
            tenced to 41 months in prison and three years of supervised release, and the former teacher
            was sentenced to 30 months in prison and three years of supervised release. Both were
            ordered to pay a proportional share of over $32,000 in restitution to OPSS. To date, eight
            individuals have been charged in this case.

TEXAS       Former Pharr San Juan Alamo Independent School District Officials Pled Guilty. A
            former superintendent and two former school board members of the Pharr-San Juan-
            Alamo Independent School District (PSJA-ISD) pled guilty in U.S. District Court, South-
            ern District of Texas, to charges related to bribery and/or extortion at the PSJA-ISD. Our
            investigation with the FBI and IRS-CID revealed that the former officials received bribes
            from various contractors in exchange for using their official capacities with the PSJA-ISD
            to influence the awarding of district construction contracts. Bribes included a trip to Las
            Vegas, hotel rooms, and tickets to sporting events and concerts. To date, 13 individuals
            have been charged in this case.

            Two Pled Guilty in Alien Smuggling Scheme Involving Teachers. Two individuals pled
            guilty in U.S. District Court, Western District of Texas, to charges relating to a conspiracy
            scheme involving alien smuggling and visa fraud. Our investigation, conducted jointly
            with a number of federal agencies revealed that the scheme involved bringing Philippine
            teachers to the U.S. to teach in Texas public schools. The defendants would offer school
            administrators all expense paid trips to the Philippines, Hong Kong, and China to inter-
            view and select the teacher candidates in exchange for the school districts agreeing to peti-


                                               15
                                                                Semiannual Report To Congress: #56

            tion for 10 teachers to come to the U.S. for every administrator who went on the trip. The
            two lured Philippine teachers into the scheme by promising prosperous jobs, permanent
            residency, and the ability to bring their families to the U.S. Based on these false promises,
            the Philippine teachers paid large fees at usurious rates and signed what they believed to be
            legitimate contracts for employment. Upon arriving in the U.S., they found out that they
            did not have teaching positions.


Financial Management and Department Operations
            Given the billions of dollars that the Department distributes each year, Department manag-
            ers must give top priority to conducting effective oversight and monitoring of its programs
            and operations in order to minimize its vulnerability to waste, fraud, and abuse. Over the
            last six months, OIG coordinated the 2007 financial statement audits, where once again the
            Department and FSA received "clean" audit opinions. The audits, however, did reveal that
            a renewed focus is warranted regarding program monitoring activities, credit reform esti-
            mates and financial reporting, and noted repeat control weaknesses within IT security and
            systems indicating the need to address the root causes of security or control weaknesses
            uniformly across the organization. In addition, OIG completed work on two Congres-
            sional requests related to internal operations, the findings of which are described below,
            along with a summary of an investigative case involving a Department subcontractor.


            Financial Management
FINANCIAL   In November, we transmitted the final audit reports covering the Department's and FSA's
STATEMENT   FY 2007 comparative financial statements and the Department's FY 2007 special-purpose
AUDITS      financial statements. Ernst & Young, LLP, Certified Public Accountants (E&Y), con-
            ducted the audits, and we performed oversight and monitoring procedures considered nec-
            essary to provide negative assurance that E&Y conducted the audits in accordance with
            standards.

            The Department and FSA each earned an unqualified or "clean" opinion on their respective
            comparative financial statements. The Reports on Internal Control for both the Depart-
            ment and FSA noted reportable conditions covering credit reform estimation and financial
            reporting processes, program monitoring activities, and controls surrounding information
            systems. Neither audit noted instances of noncompliance, exclusive of the Federal Finan-
            cial Management Improvement Act of 1996 (FFMIA); however, they did note that the
            Department's and FSA's financial management systems did not substantially comply with
            certain systems requirements of the FFMIA due to the control weaknesses surrounding IT
            systems.

            The audits covering the Department's and FSA's comparative financial statements found
            that the controls over credit reform estimation and financial reporting could be strength-
            ened by: continuing to improve the analytical tools used for the loan program cost estima-
            tion process; continuing efforts to more fully implement cohort reporting and analysis; and
            documenting, in detail, the consideration and ultimate resolution of scenarios under which
            deviation from patterns of prior cash flows may be appropriate in developing credit reform
            estimates. The audits also found renewed focus is warranted regarding program monitor-


                                               16
                                                                   Semiannual Report To Congress: #56

                ing activities. These controls could be strengthened by continuing to: reassess oversight
                and monitoring practices to include a specific focus on the risks of each program in con-
                nection with its evaluation and assessment of internal control; and refine efforts already
                underway in the approach to program management. Finally, the audits found repeat con-
                trol weaknesses within IT security and systems indicating the need to address the root
                causes of security or control weaknesses uniformly across the organization.

                The Department also earned an unqualified opinion on its special-purpose financial state-
                ments, and the auditor's report disclosed no material weaknesses in internal control over
                the financial reporting process for these statements and no instances of noncompliance
                with Treasury Financial Manual Chapter 4700 requirements.

DRUG CONTROL    As required by Section 1704(d) of Title 21, U.S. Code, and in accordance with the Office
FUNDS           of National Drug Control Policy Circular Drug Control Accounting, we authenticated the
                Department's accounting of FY 2007 drug control funds and related performance by
                expressing a conclusion on the reliability of each assertion made in the Department's
                accounting and performance reports. Based upon our review, nothing came to our atten-
                tion that caused us to believe that management's assertions contained in the Department's
                detailed accounting and performance reports are not fairly stated in all material respects.


                Internal Operations
UNIMPLEMENTED   On December 7, 2007, Chairman Henry Waxman of the U.S. House of Representatives
RECOMMEN-       Committee on Oversight and Government Reform requested that OIG compile a list of
DATIONS         recommendations that had not yet been implemented by the Department or by Congress.
                The information was requested to include recommendations made during the seven-year
                period January 1, 2001, through December 31, 2007. Our report included only those rec-
                ommendations for which the Department is directly responsible for implementing correc-
                tive actions. We provided the report to the Committee on January 31, 2008.

                For the time period requested, we identified 241 OIG products that included 1,519 recom-
                mendations. Of that universe, the Department reported that corrective action had been
                completed for 207 products (86 percent) and 1,363 recommendations (90 percent). The
                remaining 34 products included 156 recommendations that the Department had not yet
                implemented. We did not identify any recommendations issued prior to January 1, 2001,
                that the Department had not yet implemented. A complete list of the 34 audit products
                with detailed information on the 156 recommendations are included in the report. Click
                here for a copy of the report.

FINANCIAL       In 2007, Chairman George Miller of the U.S. House of Representatives' Committee on
DISCLOSURES     Education and Labor, requested that OIG conduct a review to determine whether the
                Department's existing policies, procedures, guidance, and practices are adequate for ensur-
                ing the absence of financial conflicts of interest among Department employees and officers
                responsible for the oversight of FFEL. Specifically, Chairman Miller requested that we
                review, for the six most recent years, the Standard Form 278 Executive Branch Personnel
                Public Financial Disclosure Reports (SF 278) for these employees and officers. Chairman
                Miller also expressed interest in the extent to which the Department informs, trains, or



                                                  17
                                                               Semiannual Report To Congress: #56

          counsels existing and newly hired or appointed officials on federal conflict of interest stat-
          utes and standards of ethical conduct.

          In response to the Chairman's request, we conducted an inspection to determine whether
          the Department's process for reviewing the SF 278 was adequate to identify and address
          financial conflicts of interest or the appearance of conflicts of interest among employees
          responsible for oversight of the FFEL program who are required to submit an SF 278, and
          the extent to which the Department informs, trains, or counsels existing and newly hired or
          appointed officials of federal conflict of interest statutes and standards of ethical conduct.

          Our inspection found that the Department's review process was adequate to identify and
          address financial conflicts of interest or the appearance of conflicts of interest among
          employees responsible for oversight of the FFEL program. We also determined that the
          Department informs, trains, and counsels all employees on all federal conflict of interest
          statutes and standards of ethical conduct. We did, however, find that the Department's
          reviewers did not consistently address repeated reporting errors made by filers. Examples
          of these errors include assets not appropriately reconciled, required asset information not
          disclosed in a clear and concise manner, and Excepted Investment Fund information not
          consistently and correctly reported for assets. Reports containing repeated reporting errors
          indicate that filers did not understand the reporting instructions. The Department does not
          provide formal training to filers on the basics of completing a public financial disclosure
          report. It does encourage filers to ask questions and seek advice if they are having any dif-
          ficulty completing the report, but it does not appear that filers always seek that advice.
          Reviewers informed us that they believe the filers would benefit from some sort of training
          related to filing public financial disclosure reports.

          Based on our findings, we recommended that the Department develop policies and proce-
          dures to ensure the consistent handling of reporting errors and develop a process to ensure
          that all filers receive appropriate training on public financial disclosure reports. The
          Department generally concurred with the findings and recommendations of our report.
          Click here for a copy of the report.


          Investigations
ALABAMA   Former Employee of a Department Contractor Pled Guilty to Conspiracy. A former
          employee of Electronic Data Systems (EDS), a Department contractor, pled guilty in U.S.
          District Court, Middle District of Alabama, to conspiracy for aiding and assisting others in
          the preparation and presentation of fraudulent federal income tax returns. Our investiga-
          tion, conducted jointly with the IRS-CID, found that the former employee provided stolen
          personal identifying information from systems maintained by EDS, including Department
          information on student loan borrowers who had consolidated loans, in exchange for
          money. The former employee provided the data to other individuals who used the infor-
          mation to file fraudulent tax returns.




                                             18
                                                             Semiannual Report To Congress: #56


HURRICANE-RELATED EFFORTS
          During this reporting period, OIG concluded the final two audits in our series of work
          involving HERA funds. As reported in previous Semiannual Reports to Congress, OIG
          conducted audits to determine whether HERA funds were expended as required by federal
          law and regulations, and consistent with Department guidance. HERA authorized new
          grant programs to assist school districts and schools in meeting the educational needs of
          students displaced by Hurricanes Katrina and Rita and to help schools closed as a result of
          the hurricanes to re-open as quickly and effectively as possible. These programs included
          the Immediate Aid to Restart School Operations program (Restart), the Temporary Emer-
          gency Impact Aid for Displaced Students (EIA) program, Assistance for Homeless Youth
          (HY) program, funding for students and institutions of postsecondary education affected
          by the hurricanes, and funding for recruiting, retaining, and compensating new and current
          educators in Alabama, Louisiana, and Mississippi. Congress authorized more than $1.9
          billion for these hurricane-related programs. With such a large amount of funding distrib-
          uted in a short amount of time, establishing effective procedures, processes, and account-
          ability measures for these programs was vital.

          As reported in previous Semiannual Reports to Congress, we determined that the Depart-
          ment's procedures and processes for allotting HERA-related funds were consistent with
          legislative requirements, and it allocated funding using methodologies that were appropri-
          ate. For HERA funds allocated to states for higher education, we found the Mississippi
          Institutions of Higher Learning allocated funds in compliance with law and regulations,
          and consistent with Department guidance, but our work did identify weaknesses in moni-
          toring controls of HERA higher education funds by the Louisiana Board of Regents. Our
          audits of HERA HY funds in Alabama, Georgia, Louisiana, Mississippi, and Texas found
          that the SEAs had adequate policies, procedures and controls over the administration of the
          program; however, at the time of our audits, most had not yet drawn down sufficient fund-
          ing, so any testing would not have provided an accurate representation of whether or not
          the expenditures associated with the program were allowable and allocable.

          During this reporting period, we released our final two reports of SEA allocations of EIA
          and Restart funding. We examined EIA funding at the Georgia Department of Education,
          as we had done in Alabama, Louisiana, Mississippi, and Texas; and reviewed Restart fund-
          ing at the Louisiana Department of Education, as we had done in Alabama and Missis-
          sippi. As you will read in the summaries below, the findings in these states were generally
          consistent with our findings in the other states.


          Temporary Emergency Impact Aid Funds
GEORGIA   The EIA program provided funds to SEAs to cover the cost of educating displaced stu-
          dents. To receive aid, eligible SEAs were required to provide quarterly enrollment counts
          of displaced students, and received up to $1,875 per quarter for each displaced student
          with disabilities and up to $1,500 per quarter for each displaced student without disabili-
          ties. Congress appropriated $880 million in EIA funds, of which the Department obligated
          over $55 million to Georgia. We conducted an audit to determine if the Georgia Depart-
          ment of Education (GDOE) and three selected LEAs established adequate systems of


                                            19
                                                                   Semiannual Report To Congress: #56

               internal control to provide accurate displaced student count data, if the GDOE established
               an adequate system of internal control to make accurate allocations of EIA funds, and if
               the LEAs used EIA funds only for expenditures within the cost categories allowed by the
               terms of the grant and applicable laws and regulations. The three LEAs selected were the
               Dekalb County School District, Gwinnett County Public Schools, and the Cobb County
               School District. We selected these LEAs because they had the highest quarterly displaced
               student counts, comprising between 40 and 43 percent of Georgia's initial total number of
               displaced students.

               Our audit found that all three of the LEAs reported inaccurate or unsupportable displaced
               student counts to GDOE, which submitted those numbers to the Department. As a result,
               GDOE may have received approximately $8 million in excess of its entitlement for EIA
               funds. The errors occurred because GDOE and the LEAs had weak internal controls over
               displaced student counts, and GDOE had no mechanism in place to test the reliability of
               the information received from LEAs prior to submitting the counts to the Department.
               Although GDOE established an adequate internal control system to make accurate EIA
               funding allocations, the allocations were based on inaccurate student counts. In addition,
               all three of the LEAs reviewed commingled EIA funds with general ledger funds, which
               prevented the audit team from validating that the funds were used for allowable expendi-
               tures as required by the terms of the grant and applicable laws and regulations.

               Based on our findings, we made a number of recommendations, including that the Depart-
               ment require GDOE and/or its LEAs to provide support or repay close to $8 million in pro-
               jected questionable EIA funding, as well as review their final lists of displaced students,
               report necessary adjustments, and return any ineligible funds identified as a result of those
               adjustments. GDOE did not state whether it concurred with the findings and did not agree
               with two of our nine recommendations. Click here for a copy of the report.

SIMILAR        As stated above, our findings with EIA funds in Georgia mirrored the findings of our
FINDINGS IN    audits in Alabama, Louisiana, Mississippi, and Texas, where incorrect displaced student
OTHER STATES   counts may have resulted in approximately $30 million in EIA overpayments.


               Restart Funds
LOUISIANA      The Restart program provided funding to SEAs in Alabama, Louisiana, Mississippi, and
               Texas to provide assistance or services to LEAs and non-public schools to help defray
               expenses related to the restart of operations in the reopening of, and the re-enrollment of
               students in, elementary and secondary schools. Congress appropriated $750 million for
               the Restart program, with the Department allotting more than $445 million in Restart funds
               to Louisiana. The Louisiana Department of Education (LDE) allocated the funds based on
               reviewing Restart applications from LEAs and non-public schools. We conducted an audit
               to determine if the LDE established an adequate system of internal control to make accu-
               rate allocations of Restart funds to the LEAs, and if the LDE and selected LEAs and non-
               public schools used Restart funds only for expenditures that were allowable under the
               terms of the grant and applicable laws and regulations. We found that for the time period
               examined, September 1, 2005, through June 30, 2007, the LDE and selected LEAs appro-
               priately allocated and expended the Restart funds. Click here for a copy of the report.



                                                  20
                                                                   Semiannual Report To Congress: #56

FINDINGS IN    As stated previously, the findings at the LDE were consistent with our findings for Restart
OTHER STATES   expenditures in Alabama; however, our audit of Restart funding at the Mississippi Depart-
               ment of Education (MDE), while similar to the other states, identified additional issues.
               As reported in our last Semiannual Report to Congress, MDE awarded a Restart contract to
               monitor non-public schools to a contractor with an apparent conflict of interest; initially
               disbursed Restart funds directly to non-public schools in violation of the HERA; and did
               not maintain public control of the equipment purchased with that disbursement. We made
               a number of recommendations to address these weaknesses. MDE concurred with our
               findings and stated it was taking corrective action to address our recommendations.


OTHER NOTEWORTHY EFFORTS
               Hotline Posters
               On December 24, 2007, two new Federal Acquisition Regulations went into effect: the
               first requiring government contractors to prepare a Code of Business Ethics and Conduct;
               and the second requiring contractors that meet specific criteria to display an OIG hotline
               poster informing their employees and subcontractors on how to report waste, fraud, or
               abuse to the federal agency.

               This requirement (FAR 52.203-14) mandates that impacted contractors prominently dis-
               play hotline posters at contract work sites. In addition, if the contractor maintains a com-
               pany website as a method of providing information to employees, the contractor is
               required to display an electronic version of the poster(s) on that website. OIG, with cre-
               ative and design assistance from the Department's Graphics staff, created two hotline post-
               ers that are now available on our website via this link: http://www.ed.gov/about/offices/
               list/oig/hotlineposters.html. We encouraged the Department to share this link with any
               contractor that may meet the criteria for this requirement, as well as display the posters in
               its offices and make them available to grantees.


               Non-Federal Audits
               Participants in Department programs are required to submit annual audits performed by
               independent public accountants (IPAs). We perform quality control reviews (QCRs) of
               these audits to assess their quality. We completed 43 QCRs of audits conducted by 41 dif-
               ferent IPAs, or offices of firms with multiple offices. We concluded that 14 (32.6 percent)
               were acceptable or acceptable with minor issues, 24 (55.8 percent) were technically defi-
               cient, and 5 (11.6 percent) were substandard.


               President's Council on Integrity and Efficiency
               Inspector General Higgins continues to chair the Audit Committee of the President's Coun-
               cil on Integrity and Efficiency (PCIE). Highlights from this reporting period include:




                                                  21
                                                                      Semiannual Report To Congress: #56

OIG TESTIFIES     In response to the findings of the PCIE's National Single Audit Sampling Project report
FOR PCIE BEFORE   (discussed in the last Semiannual Report to Congress, No. 55), the Senate Committee on
U.S. SENATE       Homeland Security and Governmental Affairs' Subcommittee on Federal Financial Man-
SUBCOMMITTEE      agement held a hearing on October 25 to discuss the study and what can be done to
                  improve the quality of single audits. Participants included representatives from the OMB,
                  GAO, the American Institute of Certified Public Accountants, and, representing the PCIE,
                  Hugh Monaghan, the OIG Director for Non-Federal Audits, who led the PCIE's effort. Mr.
                  Monaghan provided the Subcommittee with a summary of the report, its findings, and rec-
                  ommendations for changes to applicable requirements, standards, and procedures to
                  improve the quality of single audits. The panelists commented on the report's recommen-
                  dations aimed at improving the quality of single audits, and several provided updates on
                  their organization's efforts to address those recommendations. The Senators participating
                  in the hearing demonstrated a keen interest in the single audits and their quality and
                  expressed the importance that the recommendations listed in the PCIE's report are acted
                  upon.

OIG RECEIVES      In October 2007, the PCIE held its annual awards ceremony, acknowledging IG staffers
PCIE ALEXANDER    and teams for their achievement, exceptional work, and service to the American taxpayer.
HAMILTON AWARD    For the first time in our history, our office received the PCIE Alexander Hamilton Award.
                  The Hamilton Award is the highest honor the PCIE can bestow, recognizing outstanding
                  achievements in improving the integrity, efficiency and effectiveness of Executive Branch
                  agency operations. The award was presented to our office for our 2006 audit of 9.5 percent
                  special allowance payments made to the student lender Nelnet. As reported in previous
                  Semiannual Reports to Congress, the audit estimated that the Department improperly paid
                  Nelnet more than $278 million and could improperly pay approximately $882 million
                  more if Nelnet's billings were not corrected.

OMB ISSUES        In October 2007, OMB, in conjunction with the PCIE and Chief Financial Officers Coun-
BEST PRACTICE     cil (CFOC), issued the revised PCIE/CFOC's Best Practices Guide for Coordinating the
GUIDE             Preparation and Audit of Federal Financial Statements. The document, which was origi-
                  nally published in 2001, is intended to foster constructive working relationships between
                  the OCFOs and OIGs in preparing and auditing agency's financial statements. The guide is
                  built on the fundamental concept that effective relationships are cultivated when expecta-
                  tions are defined clearly, early, and often; communication is continuous; and parties share a
                  commitment to improving financial management. The guide establishes 12 best practices
                  for preparing and auditing federal financial statements.

PCIE/GAO 2008     The 2008 PCIE/GAO Financial Statement Audit Conference was held on Tuesday, March
FINANCIAL         4. The conference, which was free to participants, included presentations on the Perfor-
STATEMENT AUDIT   mance and Accountability Report pilot, international accounting and auditing standards,
CONFERENCE        Federal accounting standards, PCIE/GAO Financial Audit Manual, and the Federal Infor-
                  mation System Controls Audit Manual. Participants earned 6.5 hours of continuing pro-
                  fessional education.




                                                     22
                                                                                      Semiannual Report To Congress: #56


Reporting Requirements of the Inspector General Act, as amended

                                                                                                            Table          Page
    Section                                          Requirement                                           Number         Number
5(a)(1) and     Significant Problems, Abuses, and Deficiencies
5(a)(2)
                Activities and Accomplishments
5(a)(3)         Uncompleted Corrective Actions
                Recommendations Described in Previous Semiannual Reports on Which Corrective
                                                                                                               1             24
                Action Has Not Been Completed
5(a)(4)         Matters Referred to Prosecutive Authorities
                Statistical Profile                                                                            7             33
5(a)(5) and
                Summary of Instances Where Information Was Refused or Not Provided
6(b)(2)
5(a)(6)         Listing of Reports
                OIG Audit Services Reports on Department Programs and Activities                               2             25
                Other OIG Reports on Department Programs and Activities                                        3             27
5(a)(7)         Summary of Significant Audits
                Activities and Accomplishments
5(a)(8)         Audit Reports Containing Questioned Costs
                Inspector General Issued Audit Reports with Questioned Costs                                   4             28
5(a)(9)         Audit Reports Containing Recommendations That Funds Be Put to Better
                Use
                Inspector General Issued Audit Reports with Recommendations for Better Use of
                                                                                                               5             29
                Funds
5(a)(10)        Summary of Unresolved Audit Reports Issued Prior to the Beginning of
                the Reporting Period
                Unresolved Reports Issued Prior to October 1, 2007                                             6             29
5(a)(11)        Significant Revised Management Decisions
5(a)(12)        Significant Management Decisions with Which OIG Disagreed
                Unmet Intermediate Target Dates Established by the Department Under
5(a)(13)
                the Federal Financial Management Improvement Act of 1996


Table 1: Recommendations Described in Previous SARs on Which
Corrective Action Has Not Been Completed
                                                                                                     Number of              Latest
                                                                                  Total           Recommendations           Target
 Report           Report Title (Prior Semiannual            Date   Date         Monetary                                     Date
                                                                                                                          (Per corrective
 Number          Report [SAR] Number and Page)             Issued Resolved      Findings         Open        Complete       Action Plan

Section 5(a)(3) of the Inspector General Act (IG Act) as amended requires a listing of each report resolved before the commencement of
the reporting period for which management has not completed corrective action. The reports listed below are OIG internal and
nationwide audit reports.




                                                                 23
                                                                                Semiannual Report To Congress: #56

Table 1: Recommendations Described in Previous SARs on Which
Corrective Action Has Not Been Completed (Cont.)
                                                                                           Number of          Latest
                                                                              Total     Recommendations       Target
 Report          Report Title (Prior Semiannual          Date   Date        Monetary                           Date
                                                                                                            (Per corrective
 Number         Report [SAR] Number and Page)           Issued Resolved     Findings    Open     Complete     Action Plan

Federal Student Aid (FSA)
A04E0006 Death and Total and Permanent Disability      11/14/05 2/24/06                  1          3         8/30/08
         Discharges of FFEL and Direct Loan
         Program Loans (SAR 52, page 27)
A17G0004 Financial Statement Audits FY 2006 and FY 11/15/06 12/20/06                     0          5             *
         2005 - FSA (Office of the Chief Financial
         Officer (OCFO) also designated as action
         official) (SAR 54, page 30)
Office of the Chief Information Officer (OCIO)
A11F0002 Review of the Department's Incident           10/6/05 11/16/05                  7          2         6/30/08
         Handling Program and EDNet Security
         Controls (OCIO is designated as lead action
         official and OCFO and FSA as the other
         action officials) (SAR 52, page 28)
A11F0006 Audit of the Department's IT Contingency      1/31/06    5/25/06                4          0         6/30/08
         Planning Program - Asset Classification
         (SAR 52, page 28)
A11G0001 Review of the Department's Incident           9/28/06 11/17/06                  5          5         6/30/08
         Handling Program and Intrusion Detection
         System (FSA and the Office of the Under
         Secretary (OUS) also designated as action
         official) (SAR 53, page 24)
A11G0004 Department of Education's Online Privacy      9/29/06 11/17/06                  1          1         6/30/08
         Policy and Protection of Sensitive
         Information Review (OUS also designated
         as action official) (SAR 53, page 25)
A19F0009 Telecommunications Billing Accuracy            2/1/06    3/22/06                4          3         9/30/08
         (SAR 52, page 28)
Office of Management (OM)
A19G0007 Audit of the Department of Education FY       11/29/06   1/8/07                 1          7        12/31/08
         2005 IT Equipment Inventory (OCFO also
         designated as an action official) (SAR 54,
         page 32)
Office of the Deputy Secretary (ODS)
A09E0014 Departmental Actions to Ensure Charter         10/26/04 1/10/05                 1          5         3/30/08
         Schools' Access to Title I and the Individuals
         With Disabilities Education Act Part B
         Funds (Office of Elementary and Secondary
         Education (OESE) and the Office of Special
         Education and Rehabilitative Services
         (OSERS) also designated as action official)
         (SAR 50, page 22)
Office of Planning, Evaluation & Policy Development (OPEPD)
A11E0003 Audit of the Department's Performance     9/29/05        3/28/06                0          14            *
         Based Data Management Initiative (SAR 51,
         page 28)



                                                             24
                                                                                       Semiannual Report To Congress: #56

Table 1: Recommendations Described in Previous SARs on Which
Corrective Action Has Not Been Completed (Cont.)
                                                                                                      Number of                  Latest
                                                                                    Total          Recommendations               Target
 Report           Report Title (Prior Semiannual             Date   Date          Monetary                                        Date
                                                                                                                               (Per corrective
 Number          Report [SAR] Number and Page)              Issued Resolved       Findings         Open         Complete         Action Plan

   * Closure of audit was not completed in the Department’s audit tracking system (AARTS) by the end of reporting period (3/31/
   2008).




Table 2: OIG Audit Services Reports on Department Programs and
Activities (October 1, 2007, to March 31, 2008)
 Report                                                                 Date      Questioned Unsupported              No. of
 Number                           Report Title                         Issued      Costs*       Costs            Recommendations
Section 5(a)(6) of the IG Act requires a listing of each report completed by OIG during the reporting period.
AUDIT REPORTS
FSA
A03G0014 Special Allowance Payments to the AES/PHEAA for               11/19/07 $34,002,449                            11
         Loans Funded by Tax-Exempt Obligations
A03H0008 Gallaudet University's Compliance with Selected               2/22/08                                        None
         Aspects of Title IV of the HEA
A04G0002 Resolution of Institutional Student Information Report         1/9/08                                             3
         SAR C Codes Generated by the CPS Edit Check
         Process
A05G0017 Capella University's Compliance with Selected                  3/7/08     $589,892                                9
         Provisions of the HEA and Corresponding Regulations
A05G0029 Sanford-Brown College's Compliance with the 90-10             11/22/05                                            2
         Rule for the 2003 Fiscal Year
A09F0008 Wilberforce University's Administration of HEA Title          3/21/08     $116,403     $2,356,378             25
         IV Programs
A05H0015 Herzing College-Madison's Compliance with Selected            1/18/08                                             3
         Provisions of the HEA and Corresponding Regulations
A07H0009 Bellevue University's Compliance with Selected                10/30/07                                       None
         Regulations and Department Guidance
A07H0018 Vatterott College - Des Moines' Compliance with        2/21/08                            $151                    2
         Selected Provisions of the HEA and Corresponding
         Regulations
A17H0004 Final Audit Reports Financial Statement Audits for FY 11/15/07                                                    5
         2007 and FY 2006 for FSA and the Department (OCFO
         is also designated an action official)
A17H0005 Final Audit Reports - Financial Statement Audits for  11/16/07                                               None
         FY 2007 and FY 2006 for the Department - Special
         Purpose Financial Statements (The reports were also
         provided to the Secretary for her information)
OESE
A02G0020 Elizabeth Public School District Allowability of Title I, 10/9/07         $618,392     $1,328,533             14
         Part A Expenditures
A02H0006 Audit of the Virgin Islands Department of Education's 1/29/08                                                     2
         2003 Reopened Consolidated Grants



                                                                  25
                                                                                  Semiannual Report To Congress: #56

Table 2: OIG Audit Services Reports on Department Programs and
Activities (October 1, 2007, to March 31, 2008) (Cont.)
 Report                                                         Date   Questioned Unsupported                  No. of
 Number                      Report Title                      Issued    Costs*      Costs                Recommendations
A04G0015 Audit of Georgia Department of Education's           10/30/07 $8,209,117  $1,768,125                    9
         Emergency Impact Aid Program Controls and
         Compliance
A05G0032 Ohio Department of Education's Administration of its  1/8/08               $30,000                        6
         Migrant Education Program
A06H0018 Louisiana Department of Education's Compliance with 1/31/08                                             None
         Selected Hurricane Education Recovery Act-Immediate
         Aid to Restart School Operations Program
         Requirements
ALTERNATIVE PRODUCTS
OCFO
X17H0007 Final Management Letter FY 2007 and FY 2006               12/18/07                                        **
         Financial Statement Audits for the Department and
         FSA (Management Information Report addressed to
         OCFO, OCIO, and FSA)
OESE
A05H0024 Audit of selected operations of Academia.net in Indiana 10/29/07                                        None
         (Audit Closeout Letter)
X05H0017 Monitoring of the Title I, Part A, Comparability of     10/31/07                                        None
         Services Requirement (Management Information
         Report - State and Local No. 08-01)
A06G0007 Closure of our Audit of the Review of the Migrant        12/4/07                                        None
         Education Program (Audit Closeout Memorandum)
OPEPD
B19I0001   OIG Report on the Department's Detailed Accounting       2/1/08                                       None
***        of FY 2007 Drug Control Funds (Attestation Report)
Office of Safe and Drug-Free Schools (OSDFS)
B19I0001   OIG Independent Report on the Department's               2/1/08                                       None
***        Performance Summary Report for FY 2007 (Attestation
           Report)
  * For purposes of this schedule, questioned costs include other recommended recoveries. Please see footnotes 2 and 3 under
  Table 4 for additional information regarding questioned and unsupported costs.

  ** Management Information Reports may make "suggestions" rather than "recommendations." Suggestions made in
  management information reports are not tracked for audit resolution purposes. Management Information Report X17H0007
  conveyed 11 suggestions. Management Information Report X05H0017 made 2 suggestions.

  *** Two attestation reports were generated from work performed by AS staff tracked in the OIG's Audit Tracking System (ATS)
  under control number B19I0001 - "Office of Inspector General's Independent Report on the U.S. Department of Education's
  Detailed Accounting of Fiscal Year 2007 Drug Control Funds, dated January 25, 2008" issued to OPEPD on 2/1/08 and "Office of
  Inspector General's Independent Report on the U.S. Department of Education's Performance Summary Report for Fiscal Year
  2007, dated January 30, 2008" issued to OSDFS on 2/1/08.




                                                              26
                                                                                       Semiannual Report To Congress: #56

Table 2: OIG Audit Services Reports on Department Programs and
Activities (October 1, 2007, to March 31, 2008) (Cont.)
 Report                                                                 Date    Questioned Unsupported               No. of
 Number                          Report Title                          Issued    Costs*       Costs             Recommendations
   DESCRIPTION OF ALTERNATIVE PRODUCTS
   Attestation reports convey the results of attestation engagements performed within the context of their stated scope and
   objective(s). Attestation engagements can cover a broad range of financial or non-financial subjects and can be part of a financial
   audit or performance audit. They include the examination, review, or performance of agreed-upon procedures on a subject matter
   or an assertion about a subject matter and reporting on the results. Attestation reports are coded “B” in the OIG’s Audit Tracking
   System.
   Audit closeout memoranda/letters are issued to provide written notification to auditees of audit closure when the decision is
   made to close an assignment without issuing an audit report. The audit closeout memorandum/letter retains the audit’s control
   number, coded “A” in the OIG’s Tracking System.
   Management information reports provide the Department management with information derived from audits (when the
   issuance of an audit report is not appropriate) or special projects that may be useful in its program administration or conduct of
   program activities. Management information reports are coded “X” in the OIG’s Audit Tracking System.

Table 3: Other OIG Reports on Department Programs and Activities
(October 1, 2007, to March 31, 2008)
        Report
        Number                                              Title of Report                                          Date Issued
Section 5(a)(6) of the IG Act requires a listing of each report completed by OIG during the reporting period.
OCFO
       L02I0028           Educational Testing Service's Improper Billings to the Department for the National                  3/11/08
                          Assessment of Educational Progress Contract No. ED-02-CO-00231 (Alert
                          Memorandum - State and Local No. 08-03) Institute for Education Science is also
                          designated an action official)
       L09H0005           CDE Guidance to LEAs on Administrative Costs and Monitoring of LAUSD                               11/16/07
                          Corrective Actions on Single Audit Findings1 (Alert Memorandum - State and Local
                          No. 08-02)
       L09H0024           LEAs May Be Charging Retirement Incentive Payments to Federal Programs                              3/20/08
                          Without Required Prior Approval From Cognizant Federal Agency1 (Alert
                          Memorandum - State and Local No. 08-04)
ODS
       S09H0007           An OIG Perspective on Improving Accountability and Integrity in ESEA Programs2                     10/16/07
                          (Special Project)
Office of the General Counsel (OGC)
       I13H0005           Review of the Department's Public Financial Disclosure Reports for Employees                        3/12/08
                          Responsible for Oversight of the FFEL Program3 (Inspection Report)
Office of Innovation and Improvement (OII)
       L02H0018           Teach For America, Inc. Should be Considered a "High-Risk" Grantee with Special                    12/12/07
                          Conditions Placed on its Future Grants1 (Alert Memorandum - State and Local No.
                          08-01)
Congressional Request
       S20I0003           Office of Inspector General Recommendations Not Yet Implemented by the                              1/31/08
                          Department - January 2001 through December 20072 (Special Project)




                                                                  27
                                                                                         Semiannual Report To Congress: #56

Table 3: Other OIG Reports on Department Programs and Activities
(October 1, 2007, to March 31, 2008) (Cont.)
            Report
            Number                                             Title of Report                                            Date Issued
     DESCRIPTION OF TABLE 3 PRODUCTS
     1
         L02I0028 made five non-monetary suggestions and one suggestion, taking issue as to the propriety of an estimated $1.98
     million in contract billings; L09H0005 made four non-monetary suggestions; L09H0024 made five non-monetary suggestions; and
     L02H0018 made one non-monetary suggestion.
     2
        S09H0007 made fourteen non-monetary suggestions; and S20I0003 was prepared in response to a December 7, 2007 request
     made to the OIG by Chairman Henry Waxman of the House of Representatives' Committee on Oversight and Government Reform.
     Chairman Waxman requested the OIG to compile a list of our recommendations made from January 1, 2001 to the present that
     had not yet been implemented by the Department or by Congress.
     3    I13H0005 made two non-monetary recommendations.

     Alert memoranda are prepared when a serious condition requiring immediate Department management action that is either
     outside the agreed-upon objectives of an on-going audit or inspection assignment or is identified while engaged in work not related
     to an on-going assignment when audit or inspection reports will not be issued. Alert memoranda are not on the OIG website and
     are not publicly distributed. Alert memoranda are coded “L” in the OIG’s Audit Tracking System.
     Inspections are analyses, evaluations, reviews or studies of the Department’s programs. The purpose of an inspection is to
     provide Department decision makers with factual and analytical information, which may include an assessment of the efficiency
     and effectiveness of their operations, and vulnerabilities created by their existing policies or procedures. They are performed in
     accordance with the 2005 President's Council on Integrity and Efficiency Quality Standards for Inspections appropriate to the scope
     of the inspection. Inspections are coded "I" in the OIG's Audit Tracking System.
     Special projects are work that result in the issuance of a product or report that may not follow audit, inspection, or investigation
     standards. Special Projects are coded "S" in the OIG's Audit Tracking System.

Table 4: Inspector General Issued Audit Reports with Questioned
Costs1
                                                                                                          Questioned2      Unsupported3
                                                                                           Number           Costs             Costs
Section 5(a)(8) of the IG Act requires for each reporting period a statistical table showing the total number of audit reports, the total
dollar value of questioned and unsupported costs, and responding management decision.
A.       For which no management decision has been made before the
         commencement of the reporting period (as adjusted)                                    49       $1,010,548,489 $230,718,174
B.       Which were issued during the reporting period                                         9           $50,928,085       $5,483,187
                 Subtotals (A + B)                                                            58       $1,061,476,574       $236,201,361
C.          For which a management decision was made during the reporting period              11          $306,589,944       $23,056,577
            (i) Dollar value of disallowed costs                                                          $306,589,944       $23,056,577
            (ii) Dollar value of costs not disallowed                                                                $0                 $0
D.          For which no management decision has been made by the end of the                  47          $754,886,630      $213,144,784
            reporting period
E.          For which no management decision was made within six months of issuance           39          $703,962,272      $207,661,597
     3
         None of the audits reported in this table were performed by the Defense Contract Audit Agency.
     2 Questioned costs are costs that are questioned because of either an alleged violation of a provision of a law, regulation,
     contract, grant, cooperative agreement, or other agreement or document governing the expenditure of funds or a finding that, at
     the time of the audit, such cost is not supported by adequate documentation or a finding that the expenditure of funds for the
     intended purpose is unnecessary or unreasonable. Other recommended recoveries are funds recommended for reasons other
     than questioned costs. Since the IG Act does not provide for this type of monetary finding, other recommended recoveries are
     combined with the "questioned costs" category for reporting in the Semiannual Report to Congress. The category is usually used
     for findings involving recovery of outstanding funds and/or revenue earned on Federal funds. The amount also includes any
     interest due the Department resulting from auditees' use of funds. In addition, amounts reported for this category are combined
     with unsupported costs for reporting in the Semiannual Report to Congress.
     3
       Unsupported costs are costs that are questioned because, at the time of the audit, such costs were not supported by adequate
     documentation.




                                                                    28
                                                                                          Semiannual Report To Congress: #56

Table 5: Inspector General Issued Audit Reports with
Recommendations For Better Use of Funds1
                                                                                                       Number               Dollar Value
Section 5(a)(9) of the IG Act requires for each reporting period a statistical table showing the total number of audit reports and the total
dollar value of recommendations that funds be put to better use by management.
A.       For which no management decision has been made before the commencement of the                    3                  $892,327,577
         reporting period (as adjusted)
B.       Which were issued during the reporting period                                                    0                               0
                 Subtotals (A + B)                                                                         3                  $892,327,577
C.           For which a management decision was made during the reporting period
             (i) Dollar value of recommendations that were agreed to by management                         2                  $892,000,000
             (ii) Dollar value of recommendations that were not agreed to by management                    0                               $0
D.           For which no management decision has been made by the end of the reporting                    1                      $327,577
             period
E.           For which no management decision was made within six months of issuance                       1                      $327,577
     1   None of the audits reported in this table were performed by the Defense Contract Audit Agency.

Table 6: Unresolved Reports Issued Prior to October 1, 2007
                                                                                                                   Total         No. of
 Report                                         Report Title                                           Date      Monetary      Recommen-
 Number                      (Prior Semiannual Report [SAR] Number and Page)                          Issued     Findings        dations
Section 5(a)(10) of the IG Act requires a listing of each report issued before the commencement of the reporting period for which no
management decision had been made by the end of the reporting period. (Status below represents comments provided by the
Department, comments agreed to, or documents obtained from AARTS).
New Since Last Reporting Period
FSA
A02H0005 EDUTEC's Administration of the Federal Pell Grant Program (SAR 55, page 27)                 9/27/07      $83,000           5
         Status: FSA informed us it is currently working on this audit. AARTS shows FSA
         administrative stay was approved on 3/12/2008.
A06H0009 Career Point Institute's Administration of Title IV HEA Programs (SAR 55, page 9/28/07                    $4,178           2
         27)
         Status: The Program Determination Letter (PDL) was issued on 2/14/2007. OIG
         concurred with draft Audit Clearance Document (ACD)/PDL on 3/20/08; however,
         the verified amended ACD is needed in AARTS for resolution of this audit.
A06H0010 Eagle Gate College's Administration of Title IV HEA Programs (SAR 55, page 27) 9/28/07                    $2,630           6
         Status: FSA informed us that it is currently working on this audit.
A07G0012 Vatterott College-Omaha's Compliance with Selected Provisions of the HEA and        8/1/07               $37,964           7
         Corresponding Regulations (SAR 55, page 27)
         Status: AARTS shows FSA administrative stay was approved on 12/18/2007. FSA
         informed us that on 3/31/2008 FSA requested an additional administrative stay as it
         is currently working on this audit. On 4/3/2008 OCFO approved the additional
         administrative stay. FSA is currently working on this audit.
OCFO
A06G0011 Louisiana Hurricane Relief Funding (SAR 55, page 29)                                        4/18/07                        2
         Status: AARTS shows OCFO-Post Audit Group (PAG) administrative stay was
         approved on 1/11/2008.




                                                                    29
                                                                                 Semiannual Report To Congress: #56

Table 6: Unresolved Reports Issued Prior to October 1, 2007 (Cont.)
                                                                                                        Total         No. of
 Report                                    Report Title                                      Date     Monetary      Recommen-
 Number                 (Prior Semiannual Report [SAR] Number and Page)                     Issued    Findings        dations
A11F0005 Effectiveness of the Department's Financial Management Support System Oracle       6/26/07                     9
         11i Re-Implementation (Report recommends Chief of Staff/Office of the Secretary
         direct the Investment Review Board Chair, Chief Financial Officer and the Chief
         Information Officer to take recommended actions) (SAR 55, page 28)
         Status: The resolution of the audit is pending an administrative action by OCFO.
OESE
A02G0007 Hempstead Union Free School District's ESEA, Title I, Part A Non-Salary            4/10/07    $121,260        11
         Expenditures (SAR 55, page 28)
         Status: The PDL was dated 3/31/2008; however, the required documentation for
         resolution of this audit was not in AARTS on 3/31/2008. This audit should be
         removed from this list by the next SAR.
A04G0012 Audit of Mississippi Department of Education's Emergency Impact Aid Program        8/8/07    $3,192,395        4
         Controls and Compliance (SAR 55, page 28)
         Status: AARTS shows OESE administrative stay was approved on 3/12/2008.
A05G0020 Audit of the Alabama State Department of Education's and Two Selected LEAs'        9/27/07   $4,579,375        5
         Compliance with Temporary Emergency Impact Aid Program Requirements
         (SAR 55, page 28)
         Status: AARTS shows OESE administrative stay was approved on 3/12/2008.
A05G0031 Columbus City School District's Compliance with Financial Accountability           6/20/07    $48,158          8
         Requirements for Expenditures Under Selected NCLB Programs (SAR 55, page
         29)
         Status: AARTS shows OESE administrative stay was approved on 3/5/2008;
         however, the anticipated resolution date was 12/21/2007.
A05G0033 Illinois State Board of Education's Compliance with the Title I, Part A,           6/7/07    $16,809,020       8
         Comparability of Services Requirements (SAR 55, page 29)
         Status: AARTS shows OESE administrative stay was approved on 3/5/2008;
         however, the anticipated resolution date was 12/07/2007.
A06G0009 Audit of the Temporary Emergency Impact Aid for Displaced Students                 9/18/07 $10,270,000         4
         Requirements at the Texas Education Agency and Applicable LEAs (SAR 55, page
         29)
         Status: AARTS shows OESE administrative stay was approved on 3/12/2008.
A06G0010 Louisiana Department of Education's Compliance with HERA, Temporary                9/21/07   $6,303,000        4
         Emergency Impact Aid for Displaced Students Requirements (SAR 55, page 29)
         Status: AARTS shows OESE administrative stay was approved on 3/12/2008.
Reported in Previous Semiannual Reports
FSA
A04B0015 Review of Cash Management and Student Financial Assistance Refund Procedures 9/26/02          $997,313         7
         at Bennett College (OPE designated as collateral action office for this report)
         (SAR 45, page 16)
         Status: FSA informed us that it will work on getting this audit closed in AARTS by
         4/30/2008.
A04B0019 Advanced Career Training Institute's Administration of the Title IV HEA Programs 9/25/03     $7,472,583       14
         (SAR 47, page 13)
         Status: FSA informed us that it will work on getting this audit closed in AARTS by
         6/30/08.
A04E0001 Review of Student Enrollment and Professional Judgment Actions at Tennessee        9/23/04   $2,458,347        7
         Technology Center at Morristown, TN (SAR 49, page 14)
         Status: FSA informed us that it is still waiting on policy decision to address and
         resolve this audit.


                                                              30
                                                                                    Semiannual Report To Congress: #56

Table 6: Unresolved Reports Issued Prior to October 1, 2007 (Cont.)
                                                                                                            Total        No. of
 Report                                     Report Title                                         Date     Monetary     Recommen-
 Number                  (Prior Semiannual Report [SAR] Number and Page)                        Issued    Findings       dations
A05E0013 Audit of the Administration of the Student Financial Assistance Programs at the Ivy    2/25/05   $1,645,160       3
         Tech State College Campus in Gary, Indiana, During the Period July 1, 2002,
         through June 30, 2003 (SAR 50, page 21)
         Status: FSA informed us that the audit was closed on 1/22/2007; audit will be
         closed 4/30/2008 in AARTS. The audit is not considered resolved or closed until it
         is certified through AARTS.
A06F0018 Philander Smith College's Administration of Title IV Student Financial Assistance      11/2/06   $476,167        20
         Programs Needs Improvement (SAR 54, page 29)
         Status: FSA informed us that it is currently working on this audit.
A0670005 Professional Judgment at Yale University (SAR 36, page 18)                             3/13/98    $5,469          3
         Status: FSA informed us it is waiting on policy decision to address and resolve this
         finding in the final audit determination letter.
A0670009 Professional Judgment at University of Colorado (SAR 37, page 17)                      7/17/98    $15,082         4
         Status: FSA informed us it is waiting on policy decision to address and resolve this
         finding in the final audit determination letter.
A06D0018 Audit of Saint Louis University's Use of Professional Judgment for the Two-Year        2/10/05   $1,458,584       6
         Period from July 2000 Through June 2002 (SAR 50, page 21)
         Status: FSA informed us it is waiting on policy decision to address and resolve this
         finding in the final audit determination letter.
A0723545 State of Missouri, Single Audit Two Years Ended June 30, 1991                          4/1/93    $1,048,768      18
         Status: FSA previously informed us it is currently researching options to resolve
         this issue.
A0733123 State of Missouri, Single Audit Year Ended June 30, 1992                               3/7/94    $187,530        18
         Status: FSA previously informed us it is currently researching options to resolve
         this issue.
A09D0024 American River College's Compliance with Student Eligibility Requirements for          12/1/04   $3,024,665       3
         Title IV Student Financial Assistance Programs (SAR 50, page 21)
         Status: FSA informed us that it will work on getting this audit closed in AARTS by
         4/30/2008.
N0690010 Inspection of Parks College's Compliance with Student Financial Assistance             2/9/00    $169,390         1
         Requirements (SAR 40, page 18)
         Status: FSA informed us that the inspection report was previously not in AARTS
         when SAR 55 was done so that FSA ALO could close out the inspection report. The
         inspection report has been added into AARTS. FSA will work on getting this
         inspection report closed in AARTS by 6/30/2008. Required documents for
         resolution of this report are needed in AARTS.
OCFO
A03F0010 The Education Leaders Council's Drawdown and Expenditure of Federal Funds          1/31/06       $760,570        12
         (OII also designated as action official) (SAR 52, page 8)
         Status: OCFO informed us that all resolution activities have been suspended until
         further notice.
A05D0041 University of Illinois at Chicago's Upward Bound Project (OPE also designated as 12/20/04        $223,057         8
         action official) (SAR 50, page 22)
         Status: OCFO informed us that it needs to review and analyze recent information.
A05E0002 Audit of the University of Illinois at Chicago's Student Support Services Program 12/15/04       $260,050         6
         (OPE also designated as action official) (SAR 50, page 22)
         Status: OCFO previously informed us that it needs to review and analyze recent
         information.




                                                                31
                                                                                  Semiannual Report To Congress: #56

Table 6: Unresolved Reports Issued Prior to October 1, 2007 (Cont.)
                                                                                                           Total          No. of
 Report                                    Report Title                                        Date      Monetary       Recommen-
 Number                 (Prior Semiannual Report [SAR] Number and Page)                       Issued     Findings         dations
A05E0018 University of Illinois at Chicago's Upward Bound Math and Science Project (OPE       12/17/04    $274,493          7
         also designated as action official) (SAR 50, page 22)
         Status: OCFO informed us that it needs to review and analyze recent information.
A07D0002 Audit of the Talent Search Program at Case Western Reserve University (SAR 47,       7/11/03     $212,428          5
         page 14)
         Status: OCFO informed us that information submitted by auditee needs to be
         reviewed and analyzed.
A09F0010 Pittsburg Pre-School and Community Council, Inc.'s Use of Early Reading First        3/17/06     $910,217         21
         and Migrant Education Even Start Grant Funds (OESE also designated as action
         official) (SAR 52, page 9)
         Status: OCFO informed us that additional information has been requested from
         the auditee.
A09G0010 KIPP Foundation's Administration of the Fund for the Improvement of Education        12/6/06      $4,391           6
         Grants (OII also designated as an action official) (SAR 54, page 30)
         Status: OCFO informed us that information submitted by the auditee needs to be
         reviewed and analyzed.
A17G0003 Financial Statement Audits for FY 2006 and FY 2005 (FSA also designated as an        11/15/06                      5
         action official) (SAR 54, page 30)
         Status: The resolution of the audit is pending an administrative action by OCFO.
OESE
A02F0005 New Haven School District's Administration of Title I, Part A Summer and After     4/11/06      $3,780,000         4
         School Programs (SAR 53, page 25)
         Status: The PDL was dated 3/31/2008; however, the required documentation for
         resolution of this audit was not in AARTS on 3/31/2008. This audit will be removed
         from this list by the next SAR..
A02G0002 Audit of New York State Education Department's Reading First Program (SAR 54,        11/3/06    $215,832,254       8
         page 31)
         Status: OESE informed us this audit is pending continued discussions with OIG on
         resolution.
A03G0006 The Department's Administration of Selected Aspects of the Reading First Program     2/22/07                       3
         (OCFO also designated as an action official) (SAR 54, page 31)
         Status: OESE informed us this audit has an ongoing corrective action.
A04F0011 Audit of the Georgia Department of Education's Migrant Education Program (SAR        1/12/06                       7
         52, page 4)
         Status: AARTS shows OESE administrative stay was approved on 1/11/2008.
A05C0012 Audit of East Cleveland City Schools' Administration of the 21st Century             9/18/02     $349,637          9
         Community Learning Centers Grant at Kirk Middle School (SAR 45, page 18)
         Status: The PDL was dated 10/3/2007. However the required documentation for
         resolution of this audit was not in AARTS by 3/31/2008.
A06E0008 Audit of the Title I Funds Administered by the Orleans Parish School Board for the   2/16/05 $73,936,273           7
         Period July 1, 2001, through December 31, 2003 (SAR 50, page 23)
         Status: OESE informed us that it is discussing resolution of audit with OGC.
A06F0013 Oklahoma State Department of Education's Migrant Education Program (SAR 52,          3/21/06     $509,000          3
         page 4)
         Status: AARTS shows OESE administrative stay was approved on 1/11/2008.
A06F0016 Arkansas Department of Education's Migrant Education Program (SAR 53, page           8/22/06     $877,000          2
         25)
         Status: AARTS shows OESE administrative stay was approved on 1/11/2008.




                                                              32
                                                                                      Semiannual Report To Congress: #56

Table 6: Unresolved Reports Issued Prior to October 1, 2007 (Cont.)
                                                                                                                Total          No. of
 Report                                      Report Title                                            Date     Monetary       Recommen-
 Number                   (Prior Semiannual Report [SAR] Number and Page)                           Issued    Findings         dations
A09F0024 California Department of Education's Migrant Education Program (SAR 54, page               12/1/06   See Note 1*         6
         31)
         Status: AARTS shows OESE administrative stay was approved on 1/11/2008.
OPE
A07B0011 Audit of Valencia Community College's Gaining Early Awareness and Readiness                5/8/03    $1,822,864          5
         for Undergraduate Programs Matching Requirement (SAR 47, page 15)
         Status: OPE informed us that OPE and OGC are reviewing additional
         documentation provided by Valencia.
OSERS
A02B0014 Audit of the Puerto Rico Vocational Rehabilitation Administration (SAR 45, page 6/26/02 $15,800,000                      5
         18)
         Status: OSERS agrees that the audit is open and continues to work diligently
         towards completion.
A02E0020 The Virgin Islands Department of Health's Administration of the Infants and           9/28/05                           17
         Toddlers Program (see note 2) (SAR 51, page 28)
         Status: OSERS informed us that it intends to address this during the VIDE's visit to
         DC in April 2008.
A06F0019 Results of five audits of the IDEA, Part B requirements at schools under the          3/28/07 $328,000,000               6
         supervision of the Department of Interior's Bureau of Indian Affairs (Report was
         addressed to the Bureau of Indian Education, Department of the Interior) (SAR
         54, page 32)
         Status: OSERS informed us that a meeting was held on 1/23/08 with the auditee to
         discuss outstanding issues to be resolved prior to closure of audit. OSERS is
         awaiting the letter and attachments from the auditee needed to verify the issues that
         have been addressed.
  Note 1 - We identified significant numbers of ineligible children in this report, but did not project estimated questioned costs. We
  recommended that more thorough reviews be conducted to determine the total numbers of ineligible children and the return of
  funds expended for the ineligible children found.
  Note 2 - We identified $327,577 in one-time better use of funds in audit number A02E0020.

Table 7: Statistical Profile : October 1, 2007 to March 31, 2008
                                                                                                                   Six-month Period
                                                                                                                    Ending 3/31/08
OIG AUDIT REPORTS ISSUED                                                                                                              18
Questioned Costs                                                                                                             $45,444,898
Unsupported Costs                                                                                                             $5,483,187
Recommendations for Better Use of Funds

OTHER OIG PRODUCTS ISSUED                                                                                                             13
(2 Alert Memoranda, 2 Attestation Reports, 1 Audit Closeout Letter, 1 Inspection, 1 Interim Audit
Memorandum, 4 Management Information Reports, 1 Special Project)
OIG AUDIT REPORTS RESOLVED BY PROGRAM MANAGERS                                                                                        24
Questioned Costs Sustained                                                                                                   $83,533,367
Unsupported Costs Sustained                                                                                                  $23,533,367
Additional Disallowances Identified by Program Managers                                                                       $6,230,017
Management Commitment to the Better Use of Funds                                                                            $892,000,000




                                                                 33
                                                Semiannual Report To Congress: #56

Table 7: Statistical Profile : October 1, 2007 to March 31, 2008
                                                                   Six-month Period
                                                                    Ending 3/31/08
INVESTIGATIVE CASE ACTIVITY
Cases Opened                                                                     74
Cases Closed                                                                     56
Cases Active at End of Period                                                   399
Prosecutorial Decisions                                                         128
 -Accepted                                                                       53
 -Declined                                                                       75
INVESTIGATION RESULTS
Indictments/Informations                                                         38
Convictions/Pleas                                                                37
Fines Ordered                                                                $14,094
Restitution Payments Ordered                                              $1,164,766
Civil Settlements/Judgments (#)                                                   9
Civil Settlements/Judgments ($)                                           $2,495,593
Recoveries                                                                $2,053,474
Forfeitures/Seizures                                                             $0
Savings                                                                  $10,684,069




                                     34
U.S. Department of Education
Margaret Spellings
Secretary


Office of Inspector General
John P. Higgins, Jr.
Inspector General


Counsel’s Office
Mary Mitchelson
Counsel to the Inspector General


May 2008

This report is in the public domain. Authorization to reproduce it in whole or in part is granted. While
permission to reprint this publication is not necessary, the citation should be: U.S. Department of
Education, Inspector General’s Semiannual Report to Congress, No. 56.

To order copies of this report:

   •   Write to: ED Pubs, Education Publications Center, U.S. Department of Education, P.O. Box
       1398, Jessup, MD 20794-1398;

   •   Fax your request to: (301) 470-1244;

   •   E-mail your request to: edpubs@inet.ed.gov;

   •   Call in your request toll-free: 1-877-433-7827 (1-877-4-ED-PUBS). If 877 service is not yet
       available in your area, call 1-800-872-5327 (1-800-USA-LEARN). Those who use a telecom-
       munications device for the deaf (TDD) or a teletypewriter (TTY) call 1-800-437-0833; or

   •   Order online at: www.ed.gov/pubs.org

This report is also available on the Department’s Web site, at: www.ed.gov/about/offices/list/oig.

On request, this publication is available in alternate formats, such as Braille, large print, audiotape, or
computer diskette. For more information, please contact the Department’s Alternate Format Center at
(202) 260-9895 or (202) 205-8113.
Anyone knowing of fraud, waste, or abuse involving Department of Education funds
    or programs should call, write, or e-mail the Office of Inspector General.


                                Call toll-free:
                        The Inspector General’s Hotline
                      1-800-MIS-USED (1-800-647-8733)


                                    Or Write:
                          Inspector General’s Hotline
                          Office of Inspector General
                         U.S. Department of Education
                              550 12th Street, SW
                          Washington, DC 20202-1500


                                    Or e-mail:
                               oig.hotline@ed.gov


             Your report may be made anonymously or in confidence.


                 For information on identity theft prevention
                       for students and schools, visit the

              Office of Inspector General Identity Theft Web site at:
                              www.ed.gov/misused




              Our mission is to ensure equal access to education
         and to promote educational excellence throughout the nation.
                                 www.ed.gov
